<html>
<title> - STAYING AFLOAT: EXAMINING THE RESOURCES AND PRIORITIES OF THE U.S. COAST GUARD</title>
<body><pre>[Senate Hearing 114-93]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-93

                    STAYING AFLOAT: EXAMINING THE RESOURCES 
                      AND PRIORITIES OF THE U.S. COAST GUARD

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                           U.S. GOVERNMENT PUBLISHING OFFICE
97-250 PDF                           WASHNGTON : 2015                           
_______________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5631263916352325223e333a267835393b78">[email&#160;protected]</a>  
  
      
      
      
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARCO RUBIO, Florida, Chairman       CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
KELLY AYOTTE, New Hampshire          RICHARD BLUMENTHAL, Connecticut
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2015...................................     1
Statement of Senator Sullivan....................................     1
    Prepared statement...........................................    13
    Prepared statement of Senator Rubio..........................    31
Statement of Senator Booker......................................     3
Statement of Senator Nelson......................................     4
    Prepared statement...........................................     4
Statement of Senator Schatz......................................    15
Statement of Senator Peters......................................    17
Statement of Senator Cantwell....................................    23
Statement of Senator Blumenthal..................................    25

                               Witnesses

Admiral Paul F. Zukunft, Commandant, U.S. Coast Guard............     4
    Prepared statement...........................................     6

                                Appendix

Response to written questions submitted to Admiral Paul F. 
  Zukunft by:
    Hon. John Thune..............................................    33
    Hon. Dan Sullivan............................................    35
    Hon. Bill Nelson.............................................    41
    Hon. Cory Booker.............................................    43
    Hon. Maria Cantwell..........................................    44
    Hon. Richard Blumenthal......................................    50
    Hon. Brian Schatz............................................    51

 
                     STAYING AFLOAT: EXAMINING THE RESOURCES 
                       AND PRIORITIES OF THE U.S. COAST GUARD

                              ----------                              


                        TUESDAY, APRIL 28, 2015

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Ayotte, Booker, 
Cantwell, Blumenthal, Schatz, Peters, and Nelson.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard will now come to order.
    Good morning, everybody.
    I would like to start by thanking the Commandant of the 
United States Coast Guard, Admiral Paul Zukunft, for taking 
time out of his busy schedule to testify today.
    The Coast Guard's mission is to ensure the safety, 
security, and stewardship of our Nation's waters, a daunting 
task that covers the largest system of ports, waterways, and 
coastal seas in the world. The Coast Guard more than admirably 
performs this mission on a daily basis with a team of less than 
90,000 members, comprised of active duty, reserve, civilian, 
and volunteer forces, and an annual budget of less than $10 
billion and a fleet of aging vessels and aircraft.
    Admiral, I think as you know, as I have said before, prior 
to 
9/11, in my view, the Coast Guard was the only one of our 
military services whose members were risking their lives 
literally on a daily, if not hourly, basis. Your heroic efforts 
continue. Please, I think one thing we want to get out of this 
committee is to make sure you thank all your members for their 
fantastic service.
    Let me provide me a few examples of that service.
    Last year, the Coast Guard executed more than 17,500 search 
and rescue missions and saved over 3,400 lives. In addition, 
last year's Coast Guard law enforcement crews interdicted 140 
metric tons of narcotics, detained over 300 smugglers, and 
interdicted more than 3,500 migrants.
    Meanwhile, the Coast Guard's maritime prevention mission 
was responsible for the inspection of over 12,000 U.S. 
commercial vessels, 3,600 maritime facilities, and the 
screening of more than 25,000 cargo containers.
    This crucial mission ensures compliance with safety and 
environmental protections.
    As you are aware, I am a very big fan of the Coast Guard 
and your members. But as you recently stated, Admiral, the 
Coast Guard's mission demands are on the rise. Increasing human 
activity in the Arctic; violence, corruption, terrorism, and 
drug trafficking in the Caribbean Basin, Central America, and 
Mexico; and, many people don't recognize, overseas contingency 
operations demand an increased Coast Guard presence not only 
off the coast of the United States but around the globe.
    Amazingly, the Coast Guard continues to respond to these 
demands with a fleet of cutters that are operating well beyond 
their planned service life. These vessels are expensive to 
maintain and, due to their increasing age, are not necessarily 
optimal for the performance of your evolving set of missions.
    The average age of the service's medium-endurance cutters 
is almost 50 years old. The Coast Guard's high-endurance 
cutters have been in service since the 1960s. Mechanical 
malfunctions have forced four cutters headed to sea in support 
of counter-narcotic missions to return to port for emergency 
dry-docking.
    In fact, a 2014 DHA inspector general report found that the 
declining readiness of the Coast Guard's high-endurance cutters 
continues to pose significant challenges to mission 
performance. This decline in fleet readiness certainly 
contributes to the service's ability to stop just 20 percent of 
the illegal drug shipments that it knows about.
    So it is hard to believe that the Coast Guard's fiscal year 
2016 budget request does not fully fund design activities 
related to the acquisition of the offshore patrol cutter. I 
look forward to hearing what impacts this will have on the 
acquisition of the offshore patrol cutter, a priority for the 
Coast Guard.
    Another of the service's priorities should be a new polar 
icebreaker. The ongoing recession of the Arctic sea ice 
coverage and simultaneous opening of Arctic waters is driving 
dramatic increased activity in the regions of the Arctic, 
including off the coast of Alaska.
    These developments have heightened interest and concerns 
about the region's future, with the consequences for increased 
demands for search and rescue, environmental response, vessel 
traffic safety and security, law enforcement, and, of course, 
fisheries resource management.
    Coast Guard icebreakers are multi-mission platforms that 
are capable of supporting the national interest throughout the 
polar regions of our country. Its fleet of three, two of which 
are operational, pales in comparison to that of Russia's fleet 
of 40 icebreakers. The Coast Guard's fleet is actually one-
third the size recommended by the High-Latitude Mission 
Analysis report published in 2010. And we would be very 
interested in your comments on the polar icebreaker needs.
    This subcommittee has a great deal of work to do to ensure 
that the Coast Guard is properly resourced to fund its 
priorities, modernize its assets, and successfully execute its 
mission. I look forward to hearing from the Commandant and the 
Members of the Subcommittee on these and other important 
issues.
    I would now like to turn the mike over to Ranking Member 
Booker for 5 minutes to deliver his opening statement.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much.
    I just want to say this is my first opportunity to be a 
Ranking, with Senator Sullivan. It is an honor to have an 
opportunity to work with him. Honestly, his commitment in a 
very short time to the work of the Senate as well as the 
important work of this committee is admirable.
    He said something to me the other day. He has served with 
me now for 4 months, and he said it feels like 10 years. I can 
only think that is because we feel like old friends.
    Senator Sullivan. We will take that comment without 
objection.
    [Laughter.]
    Senator Booker. I have already apologized, Admiral, that I 
have to leave to an important Committee markup. But I do want 
to say thank you so much for joining us here. As the Commandant 
of the Coast Guard, your service to our country is admirable 
and deeply appreciated by all here on the Committee.
    I want to express my appreciation not only for your service 
but for all that the Coast Guard does. It has been 225 years 
that the Coast Guard has safeguarded our Nation's maritime 
interests here at home and around the world.
    And what I have seen in my time as mayor of the state's 
largest city, of which I now serve as their Senator for the 
state, has been incredible continuous work by the Coast Guard 
in our state.
    As recently as 2 weeks ago, the Coast Guard rescued four 
civilians from a capsized boat in central New Jersey. The 
operator of the 20-foot boat called the Coast Guard to say that 
it was taking on water near the entrance of the Shrewsbury 
River, just off of Sea Bright. A rescue crew from the Coast 
Guard Station Sandy Hook arrived on the scene as the boat 
capsized.
    Rescue operations like these are, unfortunately, often for 
the Coast Guard, and they remind us of the importance of the 
work that you do in saving lives and serving this nation.
    I am grateful to the men and women of the Coast Guard who 
continually put their lives on the line, day after day, for 
property at sea, who keep our ports safe and secure, and who 
protect our marine environment for this and future generations, 
both in New Jersey and around the country.
    We have facilities in our state, from the United States 
Coast Guard Training Center in Cape May to the Atlantic City 
Station, that not only serve the purposes of which I have 
mentioned but are also important and integral parts of our 
state's economy, our state's community, and our state's overall 
well-being.
    So I thank you for being here to represent the Coast Guard, 
and I look forward to hearing your testimony.
    Senator Nelson. Mr. Chairman, may I say a word?
    Senator Sullivan. Yes, sir. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I will enter a statement in the record.
    Just to say that I have spent quite a bit of time with the 
Admiral. We recently were together for a day, doing 
demonstrations of how they interdict a lot of the people that 
are coming as migrants and how they take care of them and all 
their health needs on those Coast Guard cutters. Some of those 
cutters are 50 years old. We have to replace them.
    General Kelly, the Commander of SOUTHCOM, doesn't have 
enough Coast Guard out there to stop the drugs. They can only 
interdict 20 percent of the drugs that the intelligence 
apparatus knows is coming out of South America into Central 
America and now, increasingly, into the Dominican Republic and 
Puerto Rico.
    While I was there with the Admiral, we went on a fast boat. 
And they showed me how one of their fast boats was the bad guy 
trying to get away from the Coast Guard fast boat. And, of 
course, if you like some g-forces, which I do, you can pull g-
forces almost in those sharp turns on the fast boats. So they 
just do a wonderful job.
    The final comment: They are part of our military effort on 
the other side of the globe because the Coast Guard is over 
there, along with the armed forces as well. So we owe a lot to 
this public service, and we need to modernize some of their 
equipment.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman.

    I would also like to thank the Coast Guard's 25th Commandant, 
Admiral Paul Zukunft, for testifying today.
    I had the opportunity to spend some time with Admiral Zukunft and 
some of the men and women that serve in the Coast Guard. I've 
experienced the professionalism of this sea-going service firsthand 
while flying interdiction drills with aircrews from Miami and also 
going to sea on multiple assets off the coast of Florida.
    The Coast Guard, while small, is extraordinarily agile. With 11 
statutory missions to perform, maintaining this level of agility is no 
small feat.
    The Coast Guard has a vast amount of demands placed on it, and is 
forced to meet those demands with an aging fleet of cutters and 
aircraft.
    The Coast Guard's 210-foot Medium Endurance Cutters are roughly 50 
years old, and some of the Coast Guard's C-130 planes are almost as 
old.
    Admiral, I know you face many challenges as the Commandant of the 
Coast Guard but I am confident in your ability to lead this Service. I 
am also confident in the men and women that serve under you, and in the 
Service's ability to do all that we ask of it.
    Thank you for your continued service to our country and I look 
forward to your testimony.

    Senator Sullivan. Admiral, the floor is yours for your 
opening statement.

 STATEMENT OF ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Zukunft. Good morning, Chairman Sullivan, Ranking 
Member Nelson, Ranking Member Booker, members of this 
committee. On behalf of the 88,000 men and women of the Coast 
Guard, thank you for the support that you provide to my Coast 
Guard.
    I ask that my written statement be accepted as part of the 
official record.
    Senator Sullivan. Without objection.
    Admiral Zukunft. I will first start in this, our 
hemisphere. We are witnessing extreme violence in Central 
America, stemming from insidious transnational organized 
criminal networks. We are seeing significant maritime commerce 
shifts, fueled by the American energy renaissance. We have 
rapidly increasing demands on both industry and government in 
the cyber domain. And the Arctic Ocean is open to more commerce 
and tourism every year.
    Most importantly, all of these geostrategic trends have 
converged concurrently on our nation, dramatically increasing 
demands on Coast Guard operations and contingency preparedness. 
This comes at a time when much of the Coast Guard's 
infrastructure and many of our platforms are well beyond their 
service life. As you mentioned, last year, I sent four 50-year-
old medium-endurance cutters to costly emergency dry-docks, 
losing 20 percent of my planned patrol days.
    These pressures put the Coast Guard under tremendous 
strain. To help alleviate this strain, we have developed 
strategies to address these converging trends, and, moving 
forward, we will align our budget priorities to meet them. I 
will spend just a moment discussing these converging trends.
    Illegal trade in drugs, people, and weapons is a $750 
billion global criminal enterprise, and, since 9/11, over 
450,000 Americans have died in our homeland due to drug 
violence and drug overdose. And unaccompanied minors that are 
fleeing crime-ridden countries in Central America, they are 
fleeing because drug trafficking organizations reign supreme in 
those nations, and those children are coming to a safe refuge, 
the United States.
    Now, combating these networks requires a forward-based 
presence that draws upon the Coast Guard's unique global 
authorities to attack illicit trafficking where it is most 
vulnerable, and that is at sea.
    Two weeks ago, Cutter BOUTWELL returned home from a 79-day 
patrol on a flight deck with 29,000 pounds of pure cocaine that 
she had seized as a result of 40 interdictions made by U.S. 
forces and our international partners. Those interdictions also 
resulted in the apprehension of more than 100 traffickers.
    Now, BOUTWELL is a 47-year-old Coast Guard cutter, and when 
she returned from the patrol before that, she came back with 
just slightly more cocaine than that.
    And why is that? Because today we have visibility on 
approximately 90 percent of the known maritime drug movements 
in the Caribbean and the Pacific. And we are only able to 
target, as Senator Nelson mentioned, 20 percent of that 90 
percent of those illegal shipments with our limited arsenal of 
ships and aircraft. This is truly an issue of capacity.
    And this is why the offshore patrol cutter is my number one 
recapitalization priority. The offshore patrol cutter will 
provide affordable and persistent offshore presence needed to 
meet maritime objectives well into the 21st century.
    Now, shifting to the Arctic, our Nation's fleet of ocean-
going icebreakers today is comprised of one heavy operational 
icebreaker, POLAR STAR, and one medium icebreaker, HEALY.
    Today, human activity in the Arctic is on the rise, 
including trans-Arctic shipping, ecotourism, and resource 
exploitation, and the Coast Guard is actively planning for the 
potential of Arctic drilling this summer. And we will have a 
rotational presence of the Coast Guard Cutter HEALY, a national 
security cutter, and a shore-based aviation detachment based in 
the Arctic region this summer.
    By reactivating POLAR STAR, we have purchased up to 10 
years of decision space to recapitalize our icebreaking fleet. 
Two of those years have expired. And while I am exploring 
several options to reconstitute our Nation's fleet of 
icebreakers, I will need top-line relief in my acquisition 
budget to make this requirement a reality.
    Finally, investing in 21st-century Coast Guard platforms 
and people is a smart choice. No one will return more 
operational value on every dollar than the men and women of the 
United States Coast Guard. Our acquisition force received 5 
Federal acquisition awards in 2014, and we were the first 
military service to achieve a clean, unqualified financial 
audit, an accomplishment we have done for 2 consecutive years 
as we continue to strengthen our financial management 
processes. And we have proved to be responsible stewards of our 
financial resources and capital plan, operating and maintaining 
platforms, like BOUTWELL, well beyond their service life.
    Going forward, the key to our future operational success is 
stable and predictable funding. I look forward to working with 
this committee as we make prudent investments in the 21st-
century Coast Guard.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Zukunft follows:]

      Prepared Statement of Admiral Paul F. Zukunft, Commandant, 
                            U.S. Coast Guard
Introduction
    Good morning Mr. Chairman and distinguished members of the 
Committee. Thank you for the continued support the Congress has shown 
to the 88,000 active duty, civilian, reservists, and auxiliary 
personnel of the United States Coast Guard, through funding investment 
in our people, the recapitalization of our aging fleet, and sustainment 
of our front-line operations.
    At all times an Armed Force, a regulatory agency, a humanitarian 
service, a Federal law enforcement agency and a member of the 
intelligence community, the Coast Guard protects, defends, and promotes 
National interests on the high seas, in our Exclusive Economic Zone, 
near our coasts, and in our ports and inland waterways. The Service 
leverages more than 60 bilateral agreements and arrangements to address 
counter narcotics, illegal migration, fisheries enforcement and weapons 
proliferation--not only beyond our territorial sea, but in many cases, 
extending U.S. jurisdictional reach into [the territorial sea or other] 
waters under the jurisdiction of signatory nations.
    We are a maritime law enforcement service without peer and a unique 
instrument of international diplomacy. Many nations model their 
maritime forces after the U.S. Coast Guard to address transnational 
crime, human smuggling and foreign incursions into their respective 
waters. The Coast Guard uses our broad authorities, capabilities, and 
expansive partnerships to sustain an effective and persistent presence 
to ensure the most vital National interests in the maritime operating 
environment are met.
    The U.S. Coast Guard operates in a complex, diverse and rapidly 
changing world. To ensure we meet the demands of today while preparing 
for tomorrow, the Service aligns its actions and investments with other 
components of the Department of Homeland Security (DHS) and National 
strategies. The Fiscal Year 2016 Budget continues the sound stewardship 
of fiscal resources to invest in the 21st Century Coast Guard. 
Investments in the Offshore Patrol Cutter (OPC) acquisition, improved 
aviation capabilities, integrated command and control systems and a 
proficient workforce are all critical to our future success. We remain 
an adaptable force, firmly committed to prioritizing operations and 
resources to maximize service to the Nation.
    Our extraordinary people deserve America's investment in a 21st 
century Coast Guard. In 2016, we will bring special focus to four 
maritime concerns that support the Nation's interests, security, and 
prosperity:

  (1)  Combating Transnational Organized Crime networks and securing 
        our borders;

  (2)  Safeguarding commerce;

  (3)  Enhancing our internal IT security and promoting cyber security 
        within ports; and

  (4)  Maintaining our presence in the Polar Regions.

    As part of the President's strategy to enhance stability, 
prosperity, and governance in Central America, the Coast Guard is 
repositioning legacy forces and investing in the people and platforms 
necessary to carry out an offensive strategy that targets Transnational 
Organized Crime networks, operating with impunity throughout the 
Central American region, and disrupts these criminal network operations 
where they are most vulnerable--at sea. For example, Coast Guard Cutter 
BOUTWELL returned home with nearly 60,000 pounds of uncut, pure cocaine 
with a street value of more than one and a half billion dollars in two 
patrols over the last six months. It was the result of nearly 40 
different interdictions by U.S. forces. Our Helicopter Interdiction 
Tactical Squadron (HITRON) set a record in 2014, with 46 at sea 
interdictions netting over 31 metric tons of cocaine and 27 tons of 
marijuana. The increase in illicit trafficking of humans, drugs, and 
weapons into our transit zones and southern approaches is the direct 
result of Transnational Organized Crime networks operating with 
impunity throughout the Central American region. These organizations 
are vying for power through drug-fueled violence, the effects of which 
are destabilizing governments, undermining the rule of law, terrorizing 
citizens, and driving illegal migration from Central America to the 
United States, including the inhumane and perilous migration of 
unaccompanied children.
    We continue to replace High Endurance Cutters, with the more 
capable National Security Cutters. In 2016, we will continue 
construction of the final three NSCs. In the future, acquisition of an 
affordable and capable offshore patrol cutter will also be a critical 
piece of the Coast Guard's Western Hemisphere Strategy to combat these 
networks. The OPC will be the backbone of Coast Guard offshore presence 
and the manifestation of Coast Guard authorities. It is essential to 
interdicting drug smugglers at sea, as well as for interdicting 
undocumented migrants, rescuing mariners, enforcing fisheries laws, 
responding to disasters, and protecting our ports. As the Coast Guard 
completes acquisition of the NSC, the OPC will become Coast Guard's 
number one acquisition priority.
    In 2013, a new tank barge entered the stream of commerce every day 
in America, moving product on our maritime highways to fuel the United 
States economy. There has been a significant increase in barge transits 
carrying oil and natural gas on the Mississippi River in the last five 
years. The Coast Guard plays an important role in ensuring the safe and 
secure movement of commerce on the Nation's waterways to bolster 
economic security. Changes in U.S. energy production have increased the 
traffic levels at some of our ports. Larger tanker vessels, greater 
complexity of port operations and expanded movement of energy and 
hazardous materials increase the overall risk of an incident that could 
have severe environmental consequences. To keep pace with the maritime 
industry we regulate, the Coast Guard will continue ongoing initiatives 
to improve our marine safety workforce, and support innovative 
technologies to improve waterways management.
    In 2016, we will remain in lockstep with other components of DHS 
and Department of Defense (DOD) efforts to enhance cyber security to 
defend our own network and work with port partners to protect maritime 
critical infrastructure and operators.
    The Coast Guard cutter POLAR STAR recently completed Operation Deep 
Freeze in Antarctica. Her mission consisted of breaking out a channel, 
and escorting petroleum and break bulk carriers, to resupply the United 
States base of operations in McMurdo Sound. That vital mission has 
enabled the U.S. to conduct scientific research and to implement the 
Antarctic treaty--a strategic necessity for our Nation. POLAR STAR is 
the only heavy ice breaker in the United States fleet capable of 
conducting this mission and providing assured access. In 2016, we 
continue the pre-acquisition work for procurement of a new polar 
icebreaker including development of a request for proposal.
    In 2016, the Coast Guard will continue mobile and seasonal 
operations and partner with the coast guards of all Arctic nations 
through the Arctic Coast Guard Forum. We will continue to cooperate 
with the Department of State and other Federal and international 
partners as the U.S. assumes the Chairmanship of the Arctic Council in 
2015. Mobile and seasonal operations--the summer deployment of assets 
during Operation Arctic Shield--will continue to better understand the 
operational demands of the region and inform the timing and extent of 
any infrastructure needs based on human and economic activity in the 
region. Operation Arctic Shield is geared towards assessing the 
operational capabilities of cutters, boats, and aircraft in the Arctic 
while strengthening relationships with state, local, and tribal 
stakeholders. Research operations will continue on Coast Guard's medium 
ice breaker, HEALY. In addition to providing a research platform for 
U.S. scientists, HEALY provides a vessel of opportunity to help manage 
increasing human and economic activity in the Arctic. For example, last 
summer Coast Guard Cutter HEALY was diverted to rescue a 36-foot 
sailing vessel trapped in ice forty miles north of Barrow, Alaska.
    The Coast Guard's daily activities support nearly every facet of 
the Nation's maritime interests, protect our homeland and secure our 
economic prosperity. The past year of Coast Guard operations was no 
exception. The Coast Guard responded to over 17,500 search-and-rescue 
cases, saving more than 3,400 lives; seized over 91 metric tons of 
cocaine and 48.9 metric tons of marijuana destined for the United 
States, worth an estimated $3 billion; detained over 340 suspected drug 
smugglers; interdicted more than 3,500 undocumented migrants; conducted 
over 25,000 container inspections; completed over 9,600 Safety of Life 
at Sea (SOLAS) safety exams on foreign vessels; and responded to 
approximately 8,000 reports of pollution incidents.
    You will not find a better return on investment than the U.S. Coast 
Guard. Due to exceptional commitment and innovation, the Coast Guard 
has ships sailing today that are 60 years old--well beyond their 
service life. The Medium Endurance Cutters that make up the backbone of 
the offshore fleet are reaching 50 years of age. Over the last two 
years, four of these cutters have experienced emergency drydocks, 
losing nearly 20 percent of their planned patrol days. As careful 
stewards, the Service was the first military service to earn an 
unqualified audit opinion, and has done so two years running. As part 
of the Coast Guard's plan to recapitalize for the next half century, 
the Service created an acquisition workforce that won five federal-
level awards in 2014.
    As the Service approaches 225 years of service, history has proven 
that a responsive, capable, and agile Coast Guard is an indispensable 
instrument of national security, and investing in 21st century Coast 
Guard platforms and people is a prudent choice despite the challenging 
fiscal environment.
    No other investment will return more operational value on every 
dollar than the 88,000 extraordinary men and women of the U.S. Coast 
Guard. The Coast Guard will remain Semper Paratus--Always Ready.
FY 2016 Request
    The Coast Guard's FY 2016 budget preserves Coast Guard operations, 
invests in Coast Guard personnel and continues recapitalization efforts 
for our cutters, boats, aircraft, systems and infrastructure. The 
budget also efficiently allocates resources to optimize Coast Guard 
mission performance. The Coast Guard must continue meeting today's 
operational requirements while investing in future capability to best 
serve the Nation.
    The Coast Guard's FY 2016 budget priorities are to:

  1.  Invest in the 21st Century Coast Guard;

  2.  Sustain mission excellence; and

  3.  Maximize service to nation.
Invest in the 21st Century Coast Guard
    Coast Guard mission demands continue to grow and evolve. The 
complexities and challenges facing the Nation require well-trained 
Coast Guard men and women with capable platforms providing the 
persistent presence necessary to conduct operations. Given the age and 
condition of existing assets, future mission success relies on 
continued recapitalization of Coast Guard boats, cutters, aircraft, 
systems, and infrastructure. Similar to the Medium Endurance Cutter it 
replaces, the Offshore Patrol Cutter will provide the majority of the 
Coast Guard's offshore surface capacity essential to stopping drug 
smugglers at sea in addition to interdicting undocumented migrants, 
rescuing mariners in distress, deploying alongside the Navy, enforcing 
U.S. fisheries laws, responding to disasters, and protecting our ports. 
They are an important component of enhancing security as outlined in 
the U.S. Strategy for Engagement in Central America.
    In support of the DHS's strategic objectives, the FY 2016 budget 
provides for the acquisition of six Fast Response Cutters, continues to 
invest in acquisition activities for an affordable Offshore Patrol 
Cutter and funds vessel sustainment projects for two 140-foot WTGB Ice-
breaking Tugs and a 225-foot Seagoing Buoy Tender. The budget also 
continues sustainment and conversion work on legacy fixed and rotary 
wing aircraft, missionization of the C-27J aircraft received from the 
Air Force, and investment in Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance (C4ISR) 
systems.
Sustain Mission Excellence
    The FY 2016 budget ensures the Coast Guard can conduct today's 
highest priority operations in support of national objectives. Most 
importantly, it sustains the Coast Guard's workforce and supports 
proficiency, maximizing operational safety and effectiveness. In 2016, 
the Coast Guard will decommission two 110-foot Patrol Boats that are 
being replaced by more capable Fast Response Cutters. The Coast Guard 
will also decommission three HC-130 aircraft and corresponding support 
personnel while accepting the delivery of new C-130J aircraft and C-27J 
aircraft. The FY 2016 budget sustains the Coast Guard's highest 
priority operations with current operational assets and the necessary 
workforce.
Maximize Service to Nation
    The Coast Guard's authorities extend well beyond our territorial 
sea, requiring us to meet evolving mission requirements stemming from 
national priorities, while remaining a trusted steward of public 
resources.
    The FY 2016 budget sustains critical frontline operations by 
efficiently allocating resources across all mission programs. Coast 
Guard operational commanders will continue maintaining search and 
rescue coverage, protecting critical infrastructure, countering illicit 
threats from entering the United States, facilitating the proper 
function of the MTS to minimize disruptions to the transit of maritime 
commerce, safeguarding the maritime environment, and supporting foreign 
policy objectives and defense operations.
FY 2016 Highlights
Invest in the 21st Century Coast Guard
  <bullet> Surface Assets    $533.9M (0 FTE)
    The budget provides $533.9 million for the following surface asset 
        recapitalization and sustainment initiatives:

    <ctr-circle> National Security Cutter (NSC)--Provides funding for 
            the Structural Enhancement Drydock Availability (SEDA) for 
            the NSC and post delivery activities for the fifth through 
            eighth NSCs, completing the recapitalization of the Coast 
            Guard's High Endurance Cutter fleet. The acquisition of the 
            NSC is vital to performing DHS missions in the far off-
            shore regions, including the harsh operating environment of 
            the Pacific Ocean, Bering Sea, and Arctic;

    <ctr-circle> Fast Response Cutter (FRC)--Provides funding to 
            procure six FRCs. These assets replace the aging fleet of 
            110-foot patrol boats that provide the coastal capability 
            to conduct Search and Rescue operations, enforce border 
            security, interdict drugs, uphold immigration laws, prevent 
            terrorism, and enhance resiliency to disasters;

    <ctr-circle> Offshore Patrol Cutter (OPC)--Supports technical 
            review and analysis of preliminary and contract design 
            phase deliverables for the OPC project. The 
            Administration's request includes a general provision 
            permitting a transfer to the OPC project if the program is 
            ready to award the next phase of vessel acquisition in FY 
            2016. The OPC will replace the Medium Endurance Cutter 
            classes that conduct missions on the high seas and coastal 
            approaches;

    <ctr-circle> Polar Ice Breaker (WAGB)--Continues pre-acquisition 
            activities for a new polar icebreaker;

    <ctr-circle> Cutter Boats--Continues funding for production of 
            multi-mission cutter small boats that will be fielded on 
            the Coast Guard's major cutter fleet beginning with the 
            NSC;

    <ctr-circle> In-Service Vessel Sustainment--Continues funding for 
            sustainment projects on 140-foot ice breaking tugs (WTGB), 
            225-foot seagoing buoy tenders, the training Barque EAGLE 
            (WIX), and initial sustainment activities for the 47-foot 
            motor lifeboats (MLB);

    <ctr-circle> Survey and Design--Continues funding for multi-year 
            engineering and design work for multiple cutter classes in 
            support of future sustainment and acquisition projects.

  <bullet> Air Assets    $200.0M (0 FTE)
    The budget provides $200.0 million for the following air asset 
        recapitalization or enhancement initiatives:

    <ctr-circle> HC-144A--Funds spare parts required to maintain the 
            operational availability of the HC-144A Ocean Sentry 
            aircraft;

    <ctr-circle> HC-27J--Funds continued activities of the C-27J Asset 
            Project Office (APO). The APO organizes logistics, 
            training, maintenance support and ensures these newly 
            acquired aircraft are ready for induction into the 
            operational fleet. Funds aircraft regeneration, spares, 
            initial training, mission system development, ground 
            support equipment to stand up first operational unit;

    <ctr-circle> HH-65--Continues modernization and sustainment of the 
            Coast Guard's fleet of HH-65 helicopters, converting them 
            to MH-65 Short Range Recovery (SRR) helicopters. The 
            modernization effort includes reliability and 
            sustainability improvements, where obsolete components are 
            replaced with modernized sub-systems, including an 
            integrated cockpit and sensor suite;

    <ctr-circle> C-130J--Funds initial spare parts required for stand 
            up of the second operational HC-130J unit.

  <bullet> Other Acquisition, Construction, and Improvements 
        Initiatives  $65.1M (0 FTE)
    The budget provides $65.1 million for other initiatives funded 
        under the Acquisition, Construction and Improvements account, 
        including the following equipment and services:

    <ctr-circle> Program Oversight and Management--Funds activities 
            associated with the transition of the Coast Guard's assets 
            from acquisition to operations, including delivery, 
            provision of logistics, training, and other services 
            necessary to ensure seamless integration into the 
            operational fleet;

    <ctr-circle> Command, Control, Communications, Computers, 
            Intelligence, Surveillance, and Reconnaissance (C4ISR)--
            Provides design, development, upgrades, and assistance on 
            C4ISR hardware and software, creating a common operational 
            picture and ensuring interoperability of all new and in-
            service assets;

    <ctr-circle> CG-Logistics Information Management System--Continues 
            development and deployment of a unified logistics system 
            for Coast Guard operational assets.

  <bullet> Shore Units and Aids to Navigation (ATON)    $101.4M (0 FTE)
    The budget provides $101.4 million to recapitalize shore 
        infrastructure for safe, functional, and modern facilities that 
        support Coast Guard assets and personnel:

    <ctr-circle> Specific Projects--Pier improvements in Little Creek, 
            VA, to facilitate a 210' WMEC homeport shift; renovation 
            and restoration of electrical system at Air Station Barbers 
            Point, HI; the first phase of the replacement of aging dry-
            dock facilities at the Coast Guard Yard; erosion control 
            work at Station Siuslaw River, OR; and construction of 
            permanent facilities at Station Vallejo, CA;

    <ctr-circle> ATON Infrastructure--Construction and improvements to 
            short-range aids and infrastructure to improve the safety 
            of maritime transportation.

    <ctr-circle> Major Acquisition System Infrastructure--Modification 
            and construction of facilities to support newly delivered 
            acquisitions. Includes upgrades and construction for NSC 
            homeports, Medium Range Surveillance aircraft operational 
            and maintenance facilities, and engineering, feasibility, 
            and environmental studies for future projects.

  <bullet> Personnel and Management    $116.9M (881 FTE)
    The budget provides $116.9 million for pay and benefits of the 
        Coast Guard's acquisition workforce.
Sustain Mission Excellence
  <bullet> Operational Adjustments

    <ctr-circle> Cyber Security Remediation    +$5.2M (0 FTE)
      This increase reflects a portion of a DHS-wide plan to address 
            identified vulnerabilities related to a component 
            controlled system, and the Department will track 
            remediation of these vulnerabilities commencing in FY 2015.

    <ctr-circle> Support Structure Review and Rebalancing    -$2.5M (-
            18 FTE)
      A thorough review of the Coast Guard's support delivery structure 
            identified personnel reductions at various locations that 
            can be taken with no direct operational impacts and a 
            minimal loss of current service delivery;

    <ctr-circle> National Capital Region Footprint Consolidation    -
            $3.0M (0 FTE)
      Reduces the Coast Guard's physical footprint in the National 
            Capital Region through consolidation of personnel and 
            offices into the Douglas A. Munro Coast Guard Headquarters 
            building at St. Elizabeths;

    <ctr-circle> Professional Services Contract Reduction    -$44.9M (0 
            FTE)
      Reduces or scales professional services contracts and redirects 
            savings to higher priorities;

    <ctr-circle> Manual Continuous Monitoring Reduction    -$1.2M (0 
            FTE)
      Due to increased capabilities of the Continuous Diagnostics and 
            Mitigation (CDM) program, the need for manual cyber 
            security monitoring is reduced and the Coast Guard is able 
            to achieve savings with no loss of IT system security;

    <ctr-circle> Headquarters Directorate Reduction    -$5.0M (0 FTE)
      Reduces funding for the overhead costs of Coast Guard 
            headquarters directorates through a focused effort to 
            minimize duplicative spending on consumable supplies and 
            materials.

  <bullet> Asset Decommissioning and Retirement
    As the Coast Guard recapitalizes its cutter and aircraft fleets and 
        brings new assets into service, the older assets that are being 
        replaced will be decommissioned or retired.

    <ctr-circle> Patrol Boat (WPB)    -$1.1 M (-14 FTE)
      Decommissions two 110-ft WPB patrol boats. These assets will be 
            replaced with Fast Response Cutters (FRCs) in the Seventh 
            Coast Guard District.

    <ctr-circle> HC-130 Aircraft Retirement    -$11.7M (-53 FTE)
      Eliminates funding and personnel associated with the retirement 
            of three HC-130H to the Air Force for transfer to the U.S. 
            Forest Service as outlined in the FY 2014 National Defense 
            Authorization Act. Newly acquired HC-130J and C-27J 
            aircraft will provide increased operational reliability.
Maximize Service to the Nation
  <bullet> Operating and Maintenance Funds for New Assets    +$89.9M 
        (222 FTE)
    Provides funding for operations and maintenance of shore 
        facilities, as well as cutters, boats, aircraft, and associated 
        C4ISR subsystems delivered through acquisition efforts.

    <ctr-circle> Shore Facilities--Funds operation and maintenance of 
            shore facility projects scheduled for completion by FY 
            2016;

    <ctr-circle> Response Boat-Medium--Funds operation, maintenance and 
            support of 4 RB-Ms;

    <ctr-circle> FRC--Funds operation and maintenance of FRCs #18-21 
            and provides funding for personnel to operate and maintain 
            hulls #19-22, including the shore-side support personnel;

    <ctr-circle> NSC--Funds personnel for NSC #6, and costs for shore 
            side support personnel for NSCs #4-5 (to be homeported in 
            Charleston, SC);

    <ctr-circle> C-27JA Aircraft--Funds operations, maintenance, and 
            personnel funding for the first four C-27J aircraft that 
            will be assigned to Air Station Sacramento, CA.

  <bullet> Pay & Allowances    +$80.8 (0 FTE)
    Maintains parity with DOD for military pay, allowances, and health 
        care, and for civilian pay raise and retirement contributions. 
        As a branch of the Armed Forces of the United States, the Coast 
        Guard is subject to the provisions of the National Defense 
        Authorization Act, which include pay and personnel benefits for 
        the military workforce.
Conclusion
    In closing, I will stress that you will not find a better return on 
investment than the United States Coast Guard. As the service 
approaches its 225th year, history has proven us responsive, capable, 
and agile. The Service provides tremendous operational results for 
every dollar provided to the extraordinary men and women of the United 
States Coast Guard. We have been and will remain Semper Paratus--Always 
Ready.

    Senator Sullivan. Thank you, Admiral. And, again, I would, 
please, from this committee, pass on our compliments to all the 
members of the Coast Guard, who are doing such great work for 
our country.
    I wanted to start by drilling down into an issue that is 
very Alaska-specific, but I think it is a broader issue with 
regard to how individual agency decisions in one part of the 
Federal Government can dramatically impact another agency's 
resources.
    So, over a year ago, the people of King Cove were denied a 
reliable lifesaving road that would provide medical emergency 
access because of the decision by Secretary Jewell at the 
Department of Interior not to allow for that road.
    During that time, the Secretary, in her decision, stated 
she understood the need for reliable methods of medical 
transport for lives and safety for the residents of King Cove, 
Alaska, but have concluded that other methods of transport 
remain and could be improved to meet the community's needs.
    She never identified any other methods and alternatives, 
and so what has happened is that the brave men and women of the 
Coast Guard have been asked and have admirably functioned their 
mission, to fly dangerous evacuation missions in very poor 
weather conditions.
    Since Secretary Jewell denied the road in King Cove, there 
have been seven Coast Guard medevacs, most recently on February 
22, 2015. How much do each of these evacuations from King Cove 
to Cold Bay cost the Coast Guard? Do you know?
    Admiral Zukunft. Mr. Chairman, those cost approximately 
$42,000 per medevac. That is the financial cost, but there is 
also a cost of risk. As you know, this is not a benign 
operating environment.
    Senator Sullivan. No.
    So there is also the real risk that comes with the 
expenditure of those flights.
    Senator Sullivan. A real risk to the brave men and women 
flying those flights.
    Yes, sir.
    Senator Sullivan. So, as you probably know and we certainly 
believe in Alaska, the Secretary of the Interior could fix this 
issue with the stroke of a pen. Have there been any discussions 
at all for the Department of the Interior reimbursing the Coast 
Guard for these expenses, which, again, in a year and a half, 
have grown quite significantly?
    Admiral Zukunft. There have been no such discussions.
    Senator Sullivan. OK.
    I would like to next turn to an issue that I think is on 
everybody's list here. You talked about it. I would like you to 
drill down a little bit more in your testimony with regard to 
the need for an offshore patrol cutter and the new icebreaker, 
with regard to the priorities at the top of your list.
    How will you manage the acquisition, construction, 
improvement funding needed for these priorities as the funding 
for these types of requirements continues to decline?
    I am going to submit for my written testimony how much the 
decline in your budget has been over the last few years.
    [The prepared statement of Senator Sullivan follows:]

   Prepared Statement of Hon. Dan Sullivan, U.S. Senator from Alaska
    Good morning, everyone. I'd like to start by thanking the 
Commandant of the United States Coast Guard, Admiral Paul Zukunft, for 
taking time out of his busy schedule to testify before this 
Subcommittee today.
    As we all know, the Coast Guard's mission is to ensure the safety, 
security, and stewardship of our Nation's waters--a daunting task that 
covers the largest system of ports, waterways, and coastal seas in the 
world.
    The Coast Guard admirably performs this mission on a daily basis 
with a team of less than 90,000 members comprised of active duty, 
reserve, civilian, and volunteer forces, an annual budget of less than 
$10 billion, and a fleet of aging vessels and aircraft.
    I have often said, prior to the events of September 11, 2001, the 
Coast Guard was the only uniformed service whose members risked their 
lives for this Nation on a daily basis.
    Last year, the Coast Guard executed more than 17,500 search and 
rescue missions and saved over 3,400 lives. And let me add a local item 
of interest: According to the Alaska Dispatch News, six of those 
rescues were conducted out of King Cove, in Alaska's Aleutian Chain, 
because the Department of Interior has blocked a potentially life-
saving road that would allow residents to drive to an all-weather 
airport.
    More about the heroic Coast Guard efforts in my home state: Just 
last week, an MH-60 Jayhawk helicopter crew out of Kodiak, Alaska 
rescued three mariners after a fire started on board their fishing 
vessel. The three men couldn't put out the fire, and were forced to don 
survival suits and abandon their vessel, floating in the choppy Gulf of 
Alaska in a small lifeboat. The MH-60 crew responded within a half hour 
and saved their lives.
    In addition, last year Coast Guard law enforcement crews 
interdicted 140 metric tons of narcotics, detained over 300 smugglers, 
and interdicted more than 3,500 migrants.
    Those successes have continued this year. The crew of the Cutter 
BOUTWELL seized over 14 tons of cocaine during its recent patrol. So 
far this year the Coast Guard has seized nearly 30 tons of cocaine and 
apprehended over 100 smugglers.
    Meanwhile, the Coast Guard's maritime prevention mission was 
responsible for the inspection of over 12,000 U.S. commercial vessels 
and 3,600 marine facilities, and the screening of more than 25,000 
cargo containers. This crucial mission ensures compliance with safety 
and environmental protection regulations.
    Admiral Zukunft recently stated that the Coast Guard's mission 
demands were on the rise.
    Increasing human activity in the Arctic; violence, corruption, 
terrorism, and drug trafficking in the Caribbean Basin, Central 
America, and Mexico; and overseas contingency operations demand an 
increased Coast Guard presence around the globe.
    Amazingly, the Coast Guard continues to respond to these demands 
with a fleet of cutters that are operating beyond their planned service 
life. These vessels are expensive to maintain, and due to their 
increasing age, are not necessarily optimal for the performance of 
their evolving set of missions.
    The average age of the service's medium endurance cutters is almost 
50 years.
    The Coast Guard's high endurance cutters have been in service since 
the 1960s. Mechanical malfunctions have forced four cutters headed to 
sea in support of counter-narcotics missions to return to port for 
emergency dry-docking.
    In fact, a 2014 DHS Inspector General report found that the 
declining readiness of the Coast Guard's high endurance cutters 
continues to pose significant challenges to mission performance. This 
decline in fleet readiness certainly contributes to the service's 
ability to stop just 20 percent of the illegal drug shipments that it 
knows about.
    So it's hard to believe that the Coast Guard's Fiscal Year 2016 
budget request does not fully fund design activities related to the 
acquisition of the offshore patrol cutter. I look forward to hearing 
what impact this will have on the acquisition of the offshore patrol 
cutter--a priority for the Coast Guard.
    Another of the service's priorities should be a new polar 
icebreaker. The ongoing recession of the Arctic sea ice coverage and 
simultaneous opening of Arctic waters is driving increased human 
activity in the region. These developments have heightened interest in, 
and concerns about, the region's future, with consequences for 
increased demands for search and rescue, environmental response, vessel 
traffic safety and security, law enforcement, and fisheries resource 
management.
    For example, the Bureau of Ocean Energy Management is currently 
reviewing one company's plan to drill exploratory wells off the coast 
of Alaska. This alone highlights the need for greater Coast Guard 
presence in the Arctic in support of the agency's response and 
prevention missions.
    Coast Guard icebreakers are multi-mission platforms that are 
capable of supporting national interests in the Polar Regions. Its 
fleet of three, of which two are operational, pales in comparison to 
that of Russia's fleet of 40.
    The Coast Guard's fleet is actually one third the size recommended 
by a High Latitude Mission Analysis Report published in 2010.
    That report indicated a service need of at least three heavy 
icebreakers and three medium icebreakers.
    Currently, the Coast Guard operates just one heavy icebreaker that 
was brought into service in 1976, exceeding its 30-year service life. 
An overhaul of the vessel completed in 2012 may continue her service to 
between 2019 and 2022.
    A new heavy icebreaker could cost more than $1 billion, and would 
have a tremendous impact on the Coast Guard's budget. For perspective, 
the President's Fiscal Year 2016 budget request includes approximately 
$1 billion to support all of the service's acquisition, construction, 
and improvement projects.
    This is almost 17 percent below what was enacted last year, but 
more importantly, provides the service with 35 percent less funding for 
vessel acquisitions and highlights a continuing trend of decreased 
funding for Coast Guard acquisitions.
    This Subcommittee has a great deal of work to do to ensure that the 
Coast Guard is properly resourced to fund its priorities, modernize its 
assets, and successfully execute its missions. I look forward to 
hearing from the Commandant and this Subcommittee's members on these 
important issues.

    Senator Sullivan. But how are you trying to manage that as 
the decline is occurring?
    Admiral Zukunft. Yes. Several key elements of our 
acquisition portfolio, right now the largest being our national 
security cutter. And we just awarded the final contract for the 
eighth national security cutter, which is the program of record 
for that platform.
    And I cannot say enough great things about what this 
platform is doing not just for our Coast Guard but for our 
nation overall on a global scale. So the national security 
cutter, I am quite pleased with its performance.
    We have used a commercial-off-the-shelf design to 
recapitalize our patrol boat fleet with our fast-response 
cutters using fixed-price contracts. And we will recompete 
those. The first phase of that will build 32, after that the 
next 26, with emphasis on affordability through open and fair 
competition, as we look at building that out.
    And, similarly, we have done a lot of homework on the 
offshore patrol craft, with an emphasis on meeting our mission 
demands. One is operating globally, which means in a sea state 
5, which is really 8- to 13-foot seas, where it can still 
launch boats, helicopters, perform missions, but do so in an 
affordable way and, again, using fixed-price contracting. We 
have solicited out to three bids.
    We have had great support from this committee in bringing 
on 14 C-27J aircraft at no cost to the Coast Guard, which 
avoided a $500 million expenditure, which I would be woeful to 
find those funds to recapitalize my fixed-wing squadron within 
the Coast Guard, as well.
    And so, at the same time, we are extending the service life 
of the 140-foot icebreakers, our 225-foot buoy tenders, to 
extend their service life out as we get at these most critical 
priorities within the budget constraints that we have right 
now.
    Senator Sullivan. Great. Thank you.
    We might have a second round of questions here, but my time 
is up, so, Senator Nelson.
    Senator Nelson. I am going to defer so our other members 
can go.
    Senator Sullivan. OK.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chair Sullivan; thank you, 
Ranking Member Nelson.
    Thank you, Admiral.
    I want to just start by complimenting the leadership that 
you have had in the Pacific. I have gotten to know many of your 
leaders. They live in a very nice house on Diamond Head, and 
they deserve it. They have been doing great work for many, many 
years.
    I want to start with this offshore patrol cutter question. 
You are planning for 25 at $421 million apiece. Am I getting 
those numbers correct?
    Admiral Zukunft. That would be the lead ship design, and 
then, as you go into full-rate production, with economies of 
scale, that price would come down considerably.
    Senator Schatz. OK. And, of the 25, how do they get 
deployed across the globe? And what percentage of those, if you 
can give me rough estimates, are going to be assigned to the 
drug interdiction priority?
    Admiral Zukunft. Yes. These will be ships, Senator, that 
will be around for 50-plus years. And so, as I look into my 
crystal ball, what are the threats going to be? We see 
continuing competition for fisheries, especially out in the 
Asia-Pacific region, where our remote economic exclusive zones 
are. Our nation seems to have an insatiable appetite for 
contraband, and so that will be with us.
    Illegal migration, when I look at the push-pull factors of 
illegal migration, the disparity of economies between third-
world nations and ours, that is going to be with us for some 
time, as well.
    Senator Schatz. So, excuse me, but your recapitalization 
plan does not--this is not to get at this 20-percent-of-90-
percent problem. I guess that is what I am worried about, is 
that if we are able to interdict 20 percent of the 90 percent 
that we can see, that is troubling. I am not sure that we can 
throw a sufficient number of vessels at this problem to 
actually significantly make an impact. And, therefore, we would 
be doubling down on a plan that, in the end, cannot work.
    And so I guess my question is, what do we get for our 10 
billion odd dollars spent in this recapitalization program in 
terms of drug interdiction? Does that number creep up from 20 
percent to double that? Or is it a marginal increase? Are we 
just treading water? What do we get for that?
    Because I think, if we don't get much of an increase in the 
percentage of penetration, then we have to reconsider our 
strategy, which I understand is sort of a national policy 
question.
    Admiral Zukunft. Yes. So I look at, near term, certainly, 
the offshore patrol cutter would be applied to that 90 percent 
intel.
    The other part of it is, no matter how we are resourced, 
the United States can't do this alone. I use a term, ``it takes 
a network to defeat a network.'' We get great support from the 
Royal Navy from Canada, from the Dutch, and the French. We are 
working very closely right now with Colombia to put Coast Guard 
and law enforcement teams on those platforms to leverage some 
of that 90-percent information.
    But it is not just about removing the drugs; it is what is 
happening in Central America. Eight out of 10 of the most 
violent nations right now are in this hemisphere, and they have 
gotten that way because drug trafficking organizations have 
found a safe haven. And they will continue to persist.
    And I feel it is incumbent upon the Coast Guard to 
demonstrate its authorities--we have 41 counter-drug bilateral 
agreements with many of these nations--a leadership role in 
this Nation that we are not going to allow this to proliferate 
into the 21st century.
    Senator Schatz. Right. I am in absolute agreement about not 
allowing these organizations to operate with impunity. My 
question, though, is efficacy. And I am trying to figure out, 
what do we get for taxpayers dollars in that region and how 
much of an increase in the Coast Guard's presence? So why don't 
we continue that conversation.
    I have one other question I wanted to raise for you, and it 
has to do with unmanned systems, both in the maritime space and 
the aerial space. I am wondering what the Coast Guard is doing 
in this area, especially when it comes to disaster response, 
and whether there are technical challenges that are in the 
process of being overcome.
    But it seems to me that both in the intel gathering, in the 
environmental monitoring space, and then in the actual delivery 
of supplies in the case that they are needed that there is 
great potential, and I am wondering what the Coast Guard is 
doing in that space.
    Admiral Zukunft. Yes, sir, Senator. Let me just talk 
efficacy first.
    And so, in our sequestration year of 2013, we cut our 
counter-drug activity by over 30 percent, and we saw a 
commensurate drop in our interdictions. I have nearly increased 
by 50 percent our presence this last year alone. In the first 2 
months of this Fiscal Year, we removed more drugs in the 
Pacific than we did in all of 2013. And, in fact, we have 
already exceeded what we have done in 2014.
    So numbers do matter. And so it shifts the threat of where 
it goes from there.
    When it comes to unmanned aerial systems, what we need is a 
sea-based system which is fairly light which allows us to have 
a manned system and an unmanned system. And we have worked with 
some of those prototypes.
    The Coast Guard also has 10 pilots that work with our 
Customs and Border Protection, operating their Predator drones, 
which could also be used during a disaster response to provide 
some degree of surveillance and domain awareness using that.
    So we are invested. Going forward, we are looking at light 
but sea-based platforms that we could use into the future.
    Senator Schatz. And you have the authorities you need to 
continue to pursue this technology?
    Admiral Zukunft. We have a set-aside to begin that, and so 
we are in the scoping phase right now. And then we are moving 
ahead, though, with unmanned aerial systems.
    Senator Schatz. Thank you.
    Senator Sullivan. Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman and Ranking Member 
Nelson, for being here.
    And, Admiral, it is a pleasure, too, to have you here 
before our Subcommittee here.
    I am particularly pleased to have you here because the 
Coast Guard plays a very critical mission in the Great Lakes. 
And, representing the state of Michigan, being surrounded by 
the Great Lakes is a big deal for us, and I can say firsthand 
that we are very proud of all the work the Coast Guard has done 
over the years along those shores.
    In fact, I had the opportunity to go aboard your Coast 
Guard icebreaking tug, the Bristol Bay, which is a 140-foot 
vessel, recently. Got to see firsthand some of the operations 
along the St. Clair River and was impressed by the 
professionalism and the seamanship of your crew there.
    And we talked a great deal about how their icebreaking 
operations in the Great Lakes have expanded considerably, 
especially the last couple years, with the significant ice 
cover that we had--in fact, near total both years, which, as 
you know, is an unusual event, but with the melting of the 
polar ice cap, some of our folks--in fact, I met with folks 
from NOAA who thought that might be more of the norm in the 
Great Lakes than the aberration. So we are going to continue to 
see the need for those operations.
    But that vessel, of course, as you know, also does search 
and rescue, marine environmental protection, law enforcement, 
port security, safety duties--a long list of operations.
    So, again, thank you for allowing me that opportunity. I 
also wanted to thank Admiral Midgette and District Nine for 
arranging that. And I look forward to seeing other operations 
around the Lakes that you are engaged in.
    But I wanted to switch gears a little bit here and talk 
about another one of the very critical missions that you have, 
which is to protect the marine environment from oil and 
chemical spills.
    According to a 2013 report by the Coast Guard, by your 
organization, the service and other responders--in that report, 
it was stated that the service and other responders are not 
adequately equipped or prepared to deal for a heavy oil spill 
in the Great Lakes.
    And it goes without saying a major spill in the Great Lakes 
would be a disaster of epic proportions, given the fact that we 
are one of the largest bodies of freshwater in the world and 
millions of people drink the water and the fishing/recreational 
assets there.
    And I think we are particularly vulnerable--the one that I 
am focused on is an oil pipeline that we have across the 
Straits of Mackinac that is over 60 years old. And, as we know, 
with pipelines, usually it is just a matter of time before they 
leak. And a 60-year-old pipe going across 5 miles of Great 
Lakes is a frightening prospect for me, particularly coming 
from Michigan, where we had the largest oil spill, pipeline 
spill, in history just a few years ago in the Kalamazoo River 
that--I think the price tag now is over a billion dollars, and 
still working on the cleanup there, that we have to be 
concerned about these pipelines that are going across the Great 
Lakes.
    So the question to you, Admiral, is, given the warnings 
that you had a couple years ago of the disastrous implications 
of a spill in the Great Lakes, what do you think is needed to 
build a better spill response plan for the Great Lakes region? 
What can we do to assist you in working with other stakeholders 
that are also involved in this?
    Admiral Zukunft. Yes, the real work began, Senator, with 
the regional response team. As we look at, you know, the whole 
of science, but what are the response protocols that we would 
use in a major oil spill? Probably one of the more 
controversial ones are the use of either dispersants or burning 
the oil off, or what we call an ``in situ burn.''
    We learned a lot of valuable lessons from the Deepwater 
Horizon oil spill. One, it is imperative that you have a 
responsible party and that we fully leverage the full extent of 
the authorities of the Clean Water Act to bring every national 
asset to bear when it comes to oil spill response. And if that 
is not adequate, then you reach out globally.
    So when you look at a pipeline, obviously the first thing 
you want to do is be able to secure the source so you don't 
have a continuous flow like we did with Deepwater Horizon. But 
that is a very pristine environment, and so you don't have some 
of the microbes that you do in the Gulf of Mexico that will 
normally decay, you know, what oil remains. And so a lot of 
work needs to be done on that, because the tolerance for any 
oil spill, quite honestly, is going to be very low, which means 
the removal threshold needs to be set very high.
    So we worked through that with the regional response team, 
and then how do you mitigate a major oil spill. So those are 
some of the challenges that I see going forward.
    Senator Peters. And, from the report, it seems as if you 
are concerned about some of those plans in the Great Lakes. And 
I know there have been some issues related to the Pipeline and 
Hazardous Materials Safety Administration, PHMSA, and we are 
going to have their reauthorization coming up in this 
committee, as well. And there have been some significant gaps 
that have been identified in their ability to respond or to put 
the plans forward.
    How comfortable are you with the plans in the Great Lakes, 
particularly--not just with the Straits of Mackinac pipeline, 
but we have others. So I guess a couple questions: Do you have 
enough information regarding those pipelines that cross this 
pristine environment? And do you feel comfortable that the 
partners that you work with are in a position to respond as 
quickly as necessary?
    Admiral Zukunft. And until I have actually seen the plans, 
Senator, I would have to say, no, I am not comfortable.
    And the reason I say that is that information is then 
factored into what we call an area contingency plan, when you 
look at what a worst-case discharge might be and then what 
equipment do you have to have pre-staged to enable a response 
to a spill of that magnitude. And we found out, again, during 
Deepwater Horizon, that those area contingency plans were 
inadequate for a spill of that volume.
    So I need to do a deeper read on that, and we owe you a 
response after we review that material, our area contingency 
plans, to say how ready are we for a major spill in the Great 
Lakes.
    Senator Peters. Well, I appreciate that and look forward to 
working closely with your office on that. Because, obviously, 
we can't make a mistake here, because there is no going back 
once that happens.
    Admiral Zukunft. Yes, sir.
    Senator Peters. Thank you.
    Senator Sullivan. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    The memories still linger, 5 years ago, Deepwater Horizon. 
What are some of the lessons, as you look back, that were 
learned, that we are not going to repeat?
    Admiral Zukunft. Number one, you know, this is a Federal 
response. And whether it is BP or a pipeline company or Taylor 
Energy, they are the responsible party. They are accountable 
for removing that oil.
    And so, then, going beyond that, what did we learn from the 
BP oil spill? The capping stack that shut in that well wasn't 
even designed when that well blew on April 20th of 2010, had to 
be designed on the fly. And every day an undetermined amount of 
oil was being released, and it was very difficult to quantify 
how much oil was being released, as we are trying to remove 
every last drop of it.
    We also recognize that this affects local communities. And 
so how do you integrate local communities into this response 
organization? Fishermen, people working the oil and gas 
industry that are now put out of work but be more than willing 
to work supporting this response activity, how do you marshal 
that to a good cause?
    And so we learned valuable lessons when it comes to how do 
you build unity of command when I can't issue orders, 
necessarily, to a fisherman, to an offshore oil worker, but 
they are fully incentivized to restore this environment, to 
restore their way of life. And so how do you build unity of 
command?
    And so we learned much of this. It took us several months, 
quite honestly, Senator, as you watched very closely, to 
develop those relationships with the mayors, the parish 
presidents, the Governors, and the like, to build their trust 
and confidence. In a spill like that, we have to get this 
right, right from the get-go.
    Senator Nelson. How do you build that unity of command 
when, in fact, of necessity, you are dependent upon the 
culpable party, in this case BP, to assist?
    Admiral Zukunft. Yes. So, as the Federal on-scene 
coordinator--so I was down there for 7 months. And when we 
realized we needed the world's best technology to be brought to 
bear to support an oil spill response, the dialogue that would 
take place is: We are going to need this much equipment, and on 
any given day it is going to cost about $70 million to $80 
million in response activity.
    I hand the contract to BP. I said, ``You can either sign 
the contract, or the Federal Government will sign the contract 
and then we will resolve this through litigation.'' When you 
are in the middle of a crisis, it is not the time to be 
litigating. And so we were able to have those open and frank 
discussions of, ``This is in direct response of an oil spill, 
and I need you to write the check to pay for this equipment.''
    So that was the backdoor piece that was taking place at the 
Federal level. ``If you don't pay it, I will, and then I will 
litigate.'' But that is how we would hold BP accountable.
    Senator Nelson. I remember, when I visited one of the 
response centers, the folks were telling me that the Coast 
Guard was in control--now, what I am getting to is the chain of 
command. They said the Coast Guard was in control 51 percent 
and BP was in control 49 percent. That doesn't sound like a 
very effective chain of command. What is your experience with 
that?
    Admiral Zukunft. Part of this is public imaging. And BP was 
incentivized to restore its public confidence, and so there was 
an extensive marketing campaign taking place in the middle of 
an oil spill. And so that was one of the challenges that we 
saw, is how do you manage perceptions and expectations.
    And so, instead, you start focusing on results and what are 
the results offshore, in terms of the ability to shut in that 
well. And it was two commandants ago, Admiral Thad Allen, as 
the national incident commander. And there was not unanimity of 
whether that capping stack should stay in place as the 
pressures rose, and eventually Admiral Allen says, ``The 
capping stack stays put.'' And that was probably about an 80, 
85 percent decision on the part of the Coast Guard. Others 
would say, well, you know, the pressure is building; you know, 
let it continue to flow oil.
    And the same piece is when we decide how clean is clean. BP 
may disagree with that, but when we say there is more work--and 
when you look at the amenity beaches in Pensacola, Orange 
Beach, Gulf Shores, that oil had penetrated down 5 feet. In 
every storm, that was going to resurface again, and it would 
ruin tourism in that area. We told BP, ``You need to go down 5 
feet and find that oil, sift it out, and return this to its 
original condition.''
    So, at the end of the day, it is a marketing campaign, but 
the requirements that we imposed on BP to establish standards 
of cleanliness in restoring the Gulf of Mexico to what it was, 
to the best of its ability, pre-April 20, that was where the 
Coast Guard weighed in.
    Perception was probably 51-49. In reality, it was 
probably--the separation was much greater than that.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Sullivan. Admiral, I want to go back to some, kind 
of, mission analysis that the Coast Guard has been undertaking, 
particularly in the Gulf of Alaska.
    You know, there are now seven 110-foot Island-class cutters 
in the Gulf, as you know, in several communities--Ketchikan, 
Seward, Auke Bay, Valdez, Petersburg, Homer. Each has a primary 
mission area, but my understanding is that the Island-class 
fleet is going to be phased out by 2023, to be replaced by six 
154-foot fast-response cutters.
    So, as you can imagine, there is some concern in Alaska 
that the mission coverage, as the Coast Guard looks to move 
into this transition phase, that there might be some gaps. So 
let me ask a few questions with regard to this.
    First, what is the rationale for dropping from seven 
Island-class cutters to six FRCs? In particular, I think it is 
very clear that the coverage and the needs, whether it is 
Arctic, whether it is fishing, in Alaska are actually going to 
increase. We were hoping to maintain at least seven FRCs and 
perhaps more. There is a lot of disappointment and concern in 
Alaska that that number has now dropped from seven to six.
    Can you explain the rationale there? And is that an issue 
that has been set in stone, or is that something that the Coast 
Guard is still evaluating?
    Admiral Zukunft. Hard to say where we will be 10, 15 years 
from now. But the 110-foot Island-class patrol boat, Chairman, 
they operate at 1,800 hours per year. And they are also limited 
in the sea state that they can operate in. The fast-response 
cutters are programmed for 2,500 hours per year and can operate 
in a more severe operating environment than the 110-foot 
Island-class patrol boat can.
    So if you run those numbers out, 1,800 times seven versus 
six times 2,500, you actually end up with one and a half extra 
patrol boats than you have with the existing fleet of seven 
that can operate further from its homeport and in more 
inhospitable environments, as well.
    Senator Sullivan. And do you think that that increased 
mission capacity meets up with the increased mission demand 
that we are clearly seeing off the coast of Alaska?
    Admiral Zukunft. And we will continue to evaluate that, 
Senator. We don't know what is going to happen in the far 
north. Is there a deepwater port in the Arctic right now that 
can support a fast-response cutter? The answer right now is 
``no''----
    Senator Sullivan. Right.
    Admiral Zukunft.--but that may come to bear fruit here at 
some point in time in the future. It might be Nome; it might be 
Port Clarence. And if we see increased activity in the Arctic, 
then obviously the Coast Guard is going to have to reallocate 
its resources to address that threat.
    So, once we homeport a cutter, does that mean, you know, 
that is going to be its permanent resting ground and being 
agnostic to what the world demands for resources and 
requirements? The answer to that is ``no.'' We will shift as 
necessary, as we have done throughout the Coast Guard for the 
life of some of these 110-foot Island-class patrol boats.
    Senator Sullivan. And is there any operational risk, as the 
mission coverage moves from the Island-class cutters to the 
FRCs, to have gaps in the mission coverage?
    Admiral Zukunft. The biggest gap that I see going forward, 
Chairman, is going to be further away from the ports where 
these FRCs would operate from. And, for me, it is going to be 
in the Arctic domain in the ice-free season where we are going 
to see a surge in human activity. At least, that is what we are 
looking strategically at.
    If we have drilling in the Arctic, you are going to have 
increased human activity, increased risk. And so the Coast 
Guard is going to be at least seasonally present during those 
ice-free seasons. And the offshore patrol cutter would provide 
us that middleware to sustain presence in that part of the 
world.
    Senator Sullivan. OK. Thank you for that.
    Again, we will continue to monitor that. That is a very 
important issue for a number of Alaska coastal communities, 
where the relationship between the fleet and the homebasing of 
the Island-class cutters has been very positive. And, to be 
quite frank, I think people are concerned that they might be 
the community that loses that capacity, and it has raised a lot 
of concerns.
    So we will continue to monitor that, and your continual 
updating on that issue for us would be very helpful.
    You know, you mentioned that ``if'' there is going to be 
increased human activity in the Arctic. I actually think that 
it is not ``if.'' It is not even ``when.'' It is happening, 
right? And I think that most members of the Coast Guard would 
agree with that.
    I have a number of questions related to that increased 
activity. And, again, from my perspective, this is not just an 
Alaska issue; this is an American issue. You talk about 
resource development. It is estimated that 30 percent of the 
undiscovered oil and gas resources in the world are in the 
Arctic, which is why there are so many countries--even 
countries that are not Arctic nations are now taking 
significant increased interest in the Arctic.
    And, as you know, we just, a couple days ago--Admiral Papp, 
I think, was out there--assumed the chairmanship of the Arctic 
Council. So I think it highlights the opportunities but also 
the challenges in the Arctic.
    Can you discuss, from your perspective, from the Coast 
Guard's perspective, what the most pressing issue you see with 
regard to the Arctic and how you are trying to prioritize those 
given the declining resources that you have seen?
    Admiral Zukunft. Chairman, I would put, you know, four key 
priorities, and I would weigh all of them probably equally. The 
first is safety of life at sea--search and rescue.
    Another one is environmental compliance, and that comes in 
two forms. One is the drilling and the response protocols that 
we need to have in place. And the other is, you know, is there 
going to be a migration of fishery stocks into the Arctic 
region. Which, right now, we have a decree that there would be 
no commercial activity, but that is a paper line.
    And then another is domain awareness of what other activity 
is taking place in the Arctic.
    And then, finally, another area of concern is--it falls in 
line with domain awareness--is we have mapped, the Coast Guard 
and working in conjunction with the National Science Foundation 
and NOAA and others, an area equivalent to almost twice the 
size of the state of California that resides beyond our 
traditional economic exclusive zone, what is known as our 
extended continental shelf. But we have not ratified the Law of 
the Sea Convention.
    And so that is now part of the global commons. And we do 
see other nations, namely China, doing scientific research----
    Senator Sullivan. Yes.
    Admiral Zukunft.--in what would otherwise, if we had 
ratified the Law of the Sea Convention, that would be sovereign 
U.S. waters, where we are seeing that activity, with that 30 
percent natural gas, 13 percent oil, taking place as I speak.
    So I would put all of these ranked number one for the Coast 
Guard. And a key part to addressing each and every one of those 
is having persistent presence, which we don't have with our 
capital assets today.
    Senator Sullivan. So right now you don't believe that, 
despite those priorities and the importance to the country, you 
are resourced in any way to try to address those priorities.
    Admiral Zukunft. That is correct, Senator. And the high sea 
latitude study does bear that out, as you mentioned in your 
opening statement, you know, the requirement for three heavy 
and three medium icebreakers to provide that degree of 
presence--not just for the Arctic, but we also have a mission 
in Antarctica, as well.
    Senator Sullivan. Right. OK. Thank you, Admiral.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Admiral.
    Thank you, Mr. Chairman, for holding this important 
hearing. I just left our colleague Senator Murkowski. We are 
having an Energy hearing this morning on a quadrennial energy 
package. She said I had her permission to come over here and 
talk about icebreakers. So, as the chairman knows, it is of 
great importance to our region.
    So what about, first of all, getting OMB to recognize that 
this is a governmentwide need, it is not just the Coast Guard. 
We had a hearing in the Energy Committee about the Arctic and 
what we need to do to be prepared in the Arctic. And there are 
many aspects of our government that need to take responsibility 
there, not just the Coast Guard responding.
    And what about the concept of having it, as I think Senator 
Stevens proposed at one time, you know, being part of the Navy 
budget to actually get it done and then actually backed to the 
Coast Guard, given the size and scope of the Navy's budget? 
What about that proposal?
    Admiral Zukunft. Senator, that would not be--and, again, it 
is good to see you, Senator. That would not be unprecedented. 
And, as you look at the number of stakeholders that have 
equities in a heavy icebreaker--the National Science 
Foundation, Arctic Research Council, Department of Defense, 
Homeland Security, Transportation, Interior--there may be 
another one in there, but, you know, there is probably a 
committee of at least six or seven that have equities in the 
Arctic.
    But the point you make, an icebreaker, it may say ``Coast 
Guard,'' but it is a U.S., it is an instrument of U.S. 
sovereignty, it is a national asset. You know, I would put this 
right in the same realm as a carrier strike group. We have got 
more than two of those at last count, but our nation has a 
fleet of two ocean-going icebreakers. And, quite honestly, it 
is probably not adequate enough, especially for a nation of 
this size.
    Eight times the GDP of Russia, we have two icebreakers. The 
chairman mentioned Russia has approximately 40. And we are 
looking at what is happening on the Northern Sea Route----
    Senator Sullivan. Forty, and beefing up to, I think, 15 
more.
    Admiral Zukunft. Yes.
    Senator Sullivan. Nuclear-powered icebreakers.
    Admiral Zukunft. So, clearly, there is a need going 
forward. And we are looking at all options, as you know. Do we 
reactivate--but eventually we will have to recapitalize this 
capability. We are going to be in this for the long haul.
    Senator Cantwell. Well, I thank you for that, because I 
think 4 years ago or 5 years ago, we probably wouldn't even 
have gotten the Coast Guard to be that up front. And so the 
fact that you say that we are not adequately supplying this and 
it is just as important as a Navy carrier, that is a very good 
statement. Thank you for that.
    And so I think our colleagues--I certainly want to work 
with the chair here, certainly want to work with my colleague 
Senator Murkowski, as she looks at the Arctic, and figure out a 
way how we can get this funded now. At least get one going, but 
we are obviously talking about several in need.
    Can I ask you about combat-related compensation. A key part 
of how we care for the financial well-being of disabled retired 
servicemembers is the combat-related special compensation 
payment. And, originally, this program was created for Purple 
Heart recipients, and the payments are extended to offset pay 
loss.
    So this is not something that the Coast Guard has chosen to 
do, but yet I think we have an example of someone who is 
actually performing a mission, training with a Navy pilot, who 
is required to go through this same training. And my 
understanding is that this person later was injured in a 
related service injury.
    So what about having Coast Guard actually do the same kind 
of combat-related compensation as the rest of our branches?
    Admiral Zukunft. Senator, we have looked at approximately 
280 of these cases, and we have made a determination in favor 
of the claimant in over 170 of those. Thirty-five are pending; 
66, I believe, or so were denied.
    What you are looking at, as you depict there, is a 
hazardous operation. So a Purple Heart recipient is combat-
related. Is it hazardous? And is it hazardous in terms of 
readiness for a combat mission?
    Now, I know my staff will be briefing yours, actually, a 
week from today, where we can provide you much more detail in 
terms of our combat-related special compensation for our Coast 
Guard members. But they are eligible. A number of them are 
recipients. But it would probably be helpful as we go case by 
case to share with you how those determinations are made.
    Senator Cantwell. But how, if both of these men are injured 
in that kind of exercise, which is about preparing for combat, 
why would one be compensated and not the other?
    And so, is this something within the Coast Guard? Is it 
something within DOD? I mean, I have stories that the Navy and 
other branches actually support this kind of compensation.
    Admiral Zukunft. And, Senator, the Coast Guard would, as 
well. Without knowing the particulars of that particular given 
case, the Coast Guard has its review protocols, as does the 
Navy have theirs, but I would find it obviously inconsistent if 
the Navy made a determination in one case and the Coast Guard 
did not in another.
    Senator Cantwell. So you are open to looking at the same 
combat-related compensation plan.
    Admiral Zukunft. I am.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chair.
    Senator Sullivan. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you, 
Senator Sullivan, for conducting this hearing.
    And thanks, Admiral, for your service to our Nation and for 
being a citizen of Connecticut, not a resident necessarily 
right now, but proud to have you as being from Connecticut, and 
your family, as well.
    Senator Sullivan. I thought the Admiral was from Alaska.
    [Laughter.]
    Admiral Zukunft. The Lady Huskies won me over.
    [Laughter.]
    Senator Blumenthal. And speaking of Connecticut, I want to 
ask a question about the Coast Guard museum, the national Coast 
Guard museum, which is very important to Connecticut, to New 
London, but even more so to our Nation. The Coast Guard is the 
only service in our country that has no such museum.
    And I wonder if you would join me in believing that we 
remove the impediment to the location of that museum in 
Connecticut, which is the result of a 2004 law that prohibits 
the use of DHS funds for the construction of a national Coast 
Guard museum--prohibits the Coast Guard from spending its own 
money to help build a museum that honors two-centuries-plus of 
service.
    So I assume that you join me in the belief that that 
impediment, the legal impediment, should be removed.
    Admiral Zukunft. Senator, I will have to demur on that 
particular piece, only because my budget has been under 
considerable strain. As I shared earlier in the opening, our 
acquisition budget alone, you know, we have seen a $1.5-billion 
acquisition budget that now hovers around about a billion, as I 
am trying to reconstitute aircraft, my fleet, and other areas.
    So I would need some help in that regard to be able to 
leverage our Coast Guard account to be able to support that in 
the budget environment that we find ourselves in right now.
    Now, that does not diminish the value that I place on this 
national museum, because, quite honestly, most people that I 
talk to don't realize what the Coast Guard does today or what 
we did yesterday, because we don't have this hallmark where we 
can tell our Coast Guard story. And this is where that story 
needs to be told.
    Senator Blumenthal. Well, the impediment is not only as to 
Coast Guard funds but as to Federal funds generally. So, 
assuming for the purposes of your testimony today that it 
wouldn't come out of your budget, it wouldn't detract from the 
ships and the helicopters and personnel funds that you need, 
would you support removing that impediment?
    Admiral Zukunft. Certainly, if it is not coming from our 
Coast Guard account, absolutely.
    Senator Blumenthal. Let me turn to another topic that I 
think is very important to your budget, which is the role that 
the Coast Guard plays in assisting cruise lines in safety, 
which you do, as the Coast Guard does also for folks who are 
out on Long Island Sound and run into trouble, folks who may 
not prepare adequately for the challenges and dangers of the 
sound or sea. The Coast Guard is out there for them. We think 
of the Coast Guard as interdicting criminals who are drug-
running and so forth, but they also perform these basic safety 
measures.
    And specifically as to the man-overboard technology that 
exists now, a lot of cruise lines haven't installed it, and yet 
they call on you, at expense to the Coast Guard, to come rescue 
or save someone who has fallen or jumped overboard.
    Search and rescue operations are an enormous expense for 
the Coast Guard. And so my question is, what more can the Coast 
Guard do to increase the success rate in its search and rescue 
operations? And what should be our expectations of the cruise 
lines in installing this man-overboard technology that many of 
them have failed to adopt?
    Admiral Zukunft. We are seeing more of these closed-circuit 
cameras on the open decks being installed, and we do spot 
checks. And so the cruise-line industry has taken it upon 
themselves to do that, to build public trust with its customer 
base, quite honestly.
    It is still a challenge for us. I don't have the exact 
numbers of people that fall off of cruise ships in a given 
year, but when they fall in the open ocean, oftentimes from the 
equivalent of 8 to 10 stories high, that makes for a very 
difficult search and rescue case, one being it is very 
difficult to find a person in the water without a beacon or any 
type of a locating device. And if they are unconscious, then it 
becomes even more difficult. And if it is at night, it 
approaches, quite honestly, almost impossible. So those are 
just some of the challenges.
    But we are seeing more and more cruise ships employ closed-
circuit cameras. It would probably be helpful if we provide 
you, you know, what is the status of the fleet in terms of its 
man-overboard technology, if it is being self-imposed by the 
industry itself, who we engage with quite frequently.
    Senator Blumenthal. I would appreciate that information, 
because I do think that the industry perhaps has lagged, many 
of the lines have lagged, in using the technology that is 
available, and thereby avoiding the cost to the Coast Guard and 
to others who would be involved in search and rescue efforts.
    So I appreciate it. My time has expired. I thank you very 
much----
    Admiral Zukunft. Thank you, Senator.
    Senator Blumenthal.--for your service. Thanks, Admiral.
    Admiral Zukunft. Thank you.
    Senator Sullivan. Admiral, I had just a few additional 
questions. I wanted to follow up on Senator Cantwell's comments 
about the need for additional icebreaking capabilities.
    And, you know, one of the things that I have seen in the 
last few months is this kind of dichotomy of the recognition of 
the need, how important it is. And you see senators from both 
sides of the aisle, different regions of the country--you saw 
Senator Peters here talking about the importance in the Great 
Lakes.
    Also, what is happening with regard to the Russians, their 
fleet, and other fleets. We don't have the second-largest 
fleet. I think it is number three or four or five, but it is 
way down there. And, you know, clearly, the Russians in this 
area are eating our lunch, despite what you mentioned, as a 
country whose size in terms of the economy is well below that 
of the United States.
    So it is this frustration where everybody seems to 
recognize the issue but that there is almost a political 
football of responsibility on who or what or how we are going 
to pay for this. So Senator Cantwell talked about OMB or the 
Navy or the Coast Guard or, you know, where this responsibility 
lies.
    And, as you mention, there is a precedent with regard to 
the Navy. I think it was in the 1970s where, I believe--and 
correct me if I am wrong--the cutters that were being used by 
the Coast Guard were actually initially funded in the Navy's 
budget.
    What do you think the solution to this is? Because it is a 
problem that seems to persist. People recognize it; they 
recognize the national implications, that this is a national 
security issue, but, as you mention, it is a sovereign asset 
that could be used for many different important activities for 
our country. And yet there is this kind of political football 
with regard to how you actually make it happen, in terms of 
funding.
    Do you have any suggestions in that regard?
    Admiral Zukunft. Senator, there are a number of mechanisms. 
When I look back at TARP funding or other initiatives that have 
been, you know--whether it is any aspect of our infrastructure. 
But this is part of our national infrastructure, if you will, 
in terms of our ability to exert influence and sovereignty in 
the Arctic domain.
    And so I would approach this as we would any other 
infrastructure requirement for our nation, to provide the 
funding and the means to be able to bring this infrastructure 
up to 21st-century standards, because we are just not there 
right now.
    Senator Sullivan. And are there areas that we are not, you 
know--I know there are a lot of smart men and women serving in 
the Coast Guard. Are there things that we are not thinking 
about, from the congressional perspective, of how to make this 
happen?
    Is there a more creative solution than a billion-dollar 
piece of the Coast Guard's budget, which would be, you know, as 
I mentioned in my opening statement, eating up essentially the 
entire budget that you have proposed with regard to maintenance 
and construction issues?
    Admiral Zukunft. Senator, first it begins with, you know, 
what are the requirements for an icebreaker in the 21st 
century. And so, rather than just a Coast Guard-generated 
aspect of requirements, who else has equity? And, as you 
mentioned earlier, National Science Foundation----
    Senator Sullivan. Oh, I think a lot of people have 
equities.
    Admiral Zukunft.--and to support scientific missions. 
Department of Commerce, NOAA--can it do offshore mapping? 
Arctic Research Council, Department of Interior, 
Transportation, and then, obviously, DHS and DOD.
    And so you need an icebreaker that, one, it probably needs 
to be environmentally compliant. If we are going to have rigid 
environmental standards under MARPOL regs that will probably 
come into effect in 2017, the United States better be a role 
model in the Arctic.
    But if the initial threat is the science, then we need to 
be able to support scientific research. If it is an oil spill, 
then you probably don't have the shore infrastructure. You need 
that ship to support a command and control response 
organization.
    And if there is a law enforcement threat or a military 
threat, perhaps a module that then would allow that icebreaker 
to be somewhat of a warship or at least a law enforcement 
platform, as well. Because our platforms in the past have been 
somewhat one-trick ponies.
    Senator Sullivan. Yes.
    Admiral Zukunft. But this is going to have to be able to 
meet a multitude of requirements for several agencies, as we 
look at what the challenges are going to be in the Arctic well 
into the 21st century. This is going to be a 50-year 
investment.
    Senator Sullivan. Right. Thank you for that.
    Let me--kind of, longer-term vision. Again, we are talking 
a lot about the Arctic, as we have assumed the chairmanship of 
the Arctic Council. I know, again, that the Coast Guard is 
focused on its immediate missions and its immediate budget 
requirements, but I also know that you have a very proud 
tradition of kind of thinking about the future.
    And with regard to the Arctic, as we are seeing dramatic 
increase in shipping activities through the Northwest Passage, 
where some believe that this could be a very, very critically 
important waterway for the nation, for the world, you know, in 
the decades to come, have you been laying out any kind of ideas 
in terms of what we envision the future might look like up 
there in terms of, as you mentioned, deepwater ports?
    You know, there was an article recently that came out by 
the former Chair of the Arctic Research Commission, Mead 
Treadwell, who talked about kind of a model on the Saint 
Lawrence Seaway, looking at that kind of commercial activity 
and how to move shipping through.
    And, again, this could be for a longer discussion, but is 
the Coast Guard trying to think through these things? You have 
particular expertise on some of these issues, and it is helpful 
when there is a vision laid out so Americans can understand, 
Alaskans can understand what the vision is and how we, if we 
agree with it, need to start spending and investing the proper 
resources to achieve it.
    Admiral Zukunft. Senator, first, we are starting with how 
do we do this globally, multilaterally, when we address the 
Arctic, and not just from a United States perspective but all 
members of the Arctic Council. So we have chartered an Arctic 
Coast Guard forum; in fact, we met in Washington, DC, for an 
inaugural meeting of all eight Arctic Council nations, but 
their coast guards, which means, yes, we had Russia at the 
table. Because if I didn't have Russia at the table, it would 
be the United States and Canada alone.
    So, as we look at what are the real threats as we see in 
the Arctic, think beyond Vladimir Putin. And the real threats 
continue to be safety of life at sea, environmental, the well-
being of the indigenous tribes that have lived up in the Arctic 
region for the millennium.
    And then how can we collectively work together among the 
Arctic Council nations, recognizing that we may not all have 
the resources, but can we at least come up with protocols where 
we can work with one another, know who is out in the Arctic 
domain on any given day so if the vector, an asset to a search 
and rescue case--maybe I am vectoring a Russian icebreaker, or 
maybe it is coming from Iceland via Denmark perhaps.
    But we need to think a little bit more globally and not 
just, you know, within the United States, because the United 
States alone will not be able to address all of the emerging 
contingencies that I foresee in the Arctic.
    Senator Sullivan. Right. Thank you for that.
    Let me ask a final question. This relates to the issue of 
sometimes unintended consequences. And perhaps they are 
unintended, perhaps they are not. But I have heard a number of 
concerns from the fishing community in Alaska that in 2010 
there was a Coast Guard bill that required survey and 
classification of fishing vessels greater than 50 feet in 
length, for those vessels to remain in class.
    And this requirement has, I think in many people's view, 
significantly increased the cost of vessel construction and 
has, in terms of the unintended consequences, caused some 
vessel owners to postpone vessel replacements or, in some 
cases, to build smaller, less robust vessels--the perfectly 
opposite example of what I believe the 2010 law and regulations 
were meant to do.
    So can you respond to that? Have you seen that? Because I 
certainly am hearing about it. And it is an area where, if this 
was an enactment of Congress in conjunction with the Coast 
Guard bill 6 years ago that we now think is undermining safety 
and increasing costs, is that something that we need to be 
taking another look at? Obviously, if it was in the law, that 
is something we would have to fix.
    But I am wondering about what you are hearing, because 
certainly there have been concerns raised.
    And it is particularly troubling for me when--I think, a 
lot of times, people say, well, we need to do a cost-benefit. 
The costs, the regulations, the construction is going to go up, 
but it is going to have a corresponding benefit in terms of 
safety for the fleet, which of course is a huge focus of the 
Coast Guard and all of us. But if the costs go up and the 
safety and the survivability and strength of the vessels 
actually decreases, well, that is a lose-lose, not a win-win.
    What are your thoughts on that?
    Admiral Zukunft. Probably, first, for the regulation 
itself, there was extensive outreach with the Commercial 
Fishing Vessel Safety Advisory Committee as they worked with 
us. And, yes, there was some----
    Senator Sullivan. I think they were not supportive of this 
requirement, though, that committee.
    Admiral Zukunft. From a cost perspective. We were looking 
at from a mishap perspective and from the investigations that 
we have done in the past where vessels would be retrofitted and 
adjustments would be made to the vessel where it does alter its 
capability, culminating in loss of life.
    And so our objective in all of this was to minimize loss of 
life for vessels that may have been reconfigured and sometimes 
reconfigured vessels operating in the Gulf of Mexico not 
operating in the Gulf of Alaska or in the Bering Sea.
    This is an unintended consequence. And how far that has 
gone, I will have to back-brief you on that, because I was not 
aware that, as now moving people out of that industry, smaller 
vessels, but still operating in the same harsh environment. 
Obviously, that is a concern for me, as well, Senator. Thank 
you for bringing that up.
    Senator Sullivan. OK. It would be good to hear, because, 
again, I have heard concerns about that. And your views on how 
we address that problem, if it indeed is a significant problem, 
is something that I think is important.
    And you know this, but I think a lot of Americans don't: It 
is also very important to recognize that our fishing fleet, 
whether they are in Alaska or in the Gulf of Mexico, they are 
the epitome of the small American businessman or businesswoman. 
They take risks. They work hard. They produce a world-class 
product. They oftentimes pass their family business down from 
one generation to another. And they are being crushed in many 
ways by Federal regulations.
    We all want safety, certainly, for the fleet, but we also 
want to make sure the fleet is viable. And one of the things 
that I hear in Alaska that I think the Coast Guard needs to 
keep an eye on is: The regulatory burden can be so significant, 
all well-intended, but it can be so significant that it can 
really undermine the operational ability for a family business, 
which is what many fishing vessels represent, to operate and to 
continue to go.
    So we want to work with you on those kind of things to make 
sure there is a good cost-benefit, a balance between 
regulations that are mandated by the Congress that help our 
fishing community keep safe, but also are not so burdensome 
that they undermine their ability to actually make a living. 
And I think that is something that we are all focused on, and I 
want to make sure the Coast Guard continues to be focused on 
that.
    Admiral Zukunft. Senator, I will just--and I respect those 
comments, having boarded many of these fishing vessels, and I 
fully appreciate their livelihoods. The Coast Guard is fully 
integrated with our regional fishery councils, and that is 
where these issues would, you know, region by region, where 
some of these, if they are anomalies or concerns would also be 
borne out as well. Or are we seeing, you know, a removal of the 
fleet, where now there are just fewer vessels.
    But we have other ways of reaching into this industry 
besides being on the water, but probably the best place is 
through our regional fishery councils.
    Senator Sullivan. Great.
    Well, Admiral, I want to thank you again, you and all the 
members of your staff and all the men and women in the Coast 
Guard, for your testimony today, for what they do. Your 
testimony and forthright answers, I think, are very refreshing 
and very informative for this committee.
    I ask unanimous consent that Chairman Rubio's statement be 
included for the record.
    [The prepared statement of the Chairman follows:]

   Prepared Statement of Hon. Marco Rubio, U.S. Senator from Florida
    I thank the Commandant of the Coast Guard Admiral Zukunft for 
appearing before this Subcommittee today to discuss the resources and 
priorities for the United States Coast Guard, and commend his service 
to our country.
    The Coast Guard is quite unique in that it is the only U.S. 
military service not within the Department of Defense. Its 40,000 
active-duty members, 7,500 reservists, 8,000 civilian employees and 
30,000 volunteer Auxiliarists are responsible for the world's largest 
system of seas, ports and waterways. The Coast Guard's mission is one 
of upmost importance, with maritime security, law enforcement and 
prevention and response activities at its core. With a peninsular state 
like Florida, this is no small task. Miami is home to the Seventh 
District and with its location near many Caribbean countries, the Coast 
Guard is an integral piece to the Homeland Security puzzle. Human 
smuggling, mass migration and trafficking of narcotics and arms are 
just a few high-risk but integral missions carried out by the men and 
women of the Coast Guard.
    In order to achieve its mission, the Coast Guard faces fiscal 
challenges. An aging fleet with some ships approaching 50 years old 
plagues the service and demands continue to increase and evolve. For 
this reason, I, along with fifteen of my colleagues, sent a letter to 
the Senate Appropriations Committee voicing support for funding the 
much needed tools requested by the Coast Guard. An already stretched 
agency, which has seen a declining budget over the last five years, 
faces increased demands around the Nation including in the Gulf of 
Mexico and Caribbean. We need to ensure that the Commandant's 
shipbuilding plan is funded and well executed to deliver newer assets 
to the fleet as more demands are placed on the service. We also need to 
take care of our facilities ashore including sites like Naval Station 
Guantanamo Bay, which serves as a logistical hub for interdicted 
narcotics, human smuggling, and is also a likely site for a potential 
mass migration crisis from Cuba or Hispaniola. An American presence in 
the Caribbean advances our interests in the region, and assures our 
neighbors we are willing and able to help in times of natural disasters 
and instability. In January, I wrote to Admiral Zukunft on the 
significant role of Naval Station Guantanamo's support of Coast Guard 
operations in the Caribbean. I was pleased to receive the Admiral's 
response stating, ``[t]he Coast Guard will continue to use Naval 
Station GTMO as a vital forward operating base and logistical hub . . . 
Naval Station GTMO facilitates a persistent, necessary Coast Guard 
presence in the region that is essential for executing our many 
missions and enhancing regional security and cooperation now and in the 
future.''
    For Floridians who enjoy a day on the Atlantic, Gulf of Mexico or 
near my hometown on Biscayne Bay, the Coast Guard is a lifeline when 
things go awry. Just this past Sunday, two people were rescued in the 
Gulf of Mexico after their boat capsized. We also send our prayers to 
the friends and families of those affected by the powerful storm this 
past weekend, which capsized several sailboats competing in a regatta 
near Mobile Bay, Alabama. Indeed the Coast Guard crews were on scene, 
performing vital search and rescue operations in the aftermath of this 
sudden storm. This is a testament to the dangers of weather, and the 
importance of this vital agency.
    As this Subcommittee moves forward with a Coast Guard 
reauthorization, I look forward to continuing this important dialogue 
to ensure we provide the proper oversight of the Coast Guard's budget 
but also the appropriate funding authorization which will allow the 
Coast Guard to better safeguard our Nation and its people. Thank you.

    Senator Sullivan. And I want to now conclude that this 
hearing is now adjourned. Appreciate the outstanding testimony 
of the main witness.
    Thank you, Admiral.
    Admiral Zukunft. Thank you, Chairman.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                        Admiral Paul F. Zukunft
    Question 1. Given the reality of flat or declining budgets for 
acquisitions, what is the Coast Guard's most important acquisition 
project and how does it align with your mission priorities?
    Answer. The Offshore Patrol Cutter (OPC) is the Coast Guard's 
highest acquisition priority. Our OPC acquisition strategy will deliver 
capable and affordable cutters to the fleet. The OPC program will 
facilitate recapitalization of up to 28 existing in-service legacy 
Medium-Endurance cutters intended for 30-years of service to the Nation 
but which currently range in age from 24 to 51 years. The planned OPC 
will provide capabilities critical to maintaining presence in the 
offshore zones and establishing an effective layered security posture 
to ensure national preparedness and resilience in the maritime domain. 
The OPC will perform missions directly impacting the DHS Southern 
Border & Approaches campaign and enhance the effectiveness of efforts 
to combat Transnational Organized Crime networks. The planned OPC will 
perform Coast Guard missions in the Bering Sea and Gulf of Alaska, 
supporting United States interests and ensuring persistent presence in 
these regions. Finally, the OPC will be a work-horse of the Coast Guard 
fleet, filling the capability gap between the National Security Cutters 
and Fast Response Cutters and establishing the interoperable system of 
assets.

    Question 2. The Coast Guard's program of record calls for eight 
National Security Cutters (NSC), but there has been some discussion of 
a ninth NSC. What impact would a ninth NSC have on the Coast Guard's 
other high priority projects like the Offshore Patrol Cutter or a Polar 
icebreaker?
    Answer. An additional National Security Cutter (NSC) will exceed 
the program of record and consume resources needed to fill the 
capability gap between the NSC and Fast Response Cutter (FRC). The 
Offshore Patrol Cutter (OPC) requirements were developed to fill this 
gap and the OPC acquisition remains the Coast Guard's top 
recapitalization priority.

    Question 3. As we look ahead to the next Coast Guard authorization, 
are there new authorities or clarifications of existing authorities 
that may be needed by the service to successfully execute its Western 
Hemisphere Strategy?
    Answer. The Coast Guard is in the process of determining whether 
any new authority or clarifications are needed. In March, the Coast 
Guard submitted an extensive authorization proposal to the Committee, 
and looks forward to working with the Committee as the Coast Guard 
Authorization Act for 2015 moves through Congress.

    Question 4. Given persistent challenges with the issuance of a true 
Transportation Worker Identification Card (TWIC) Reader Rule, would the 
Coast Guard prefer to allow card holders to further extend the $60 
Extended Expiration Date TWIC card until the reader rule can be 
feasibly implemented?
    Answer. No, the Coast Guard does not prefer to extend the $60 
Extended Expiration Date (EED) TWIC program. The EED Program has no 
impact or advantage related to completion or issuance of the TWIC 
Reader.

    Question 5. The 2014 Coast Guard and Maritime Transportation (CGMT) 
Act contained a one-year provision that prohibited the Coast Guard from 
closing an air facility that was in operation on November 30, 2014, or 
retiring, transferring, relocating, or deploying an aviation asset from 
such a facility. What impact, if any, has this prohibition had on 
existing Coast Guard mission priorities?
    Answer. The prohibition on closing AIRFACs contained within the 
2014 Coast Guard and Maritime Transportation Act has caused immediate 
impacts to Coast Guard operations. If the prohibition continues with 
the Air Facilities remaining unfunded, there will also be additional 
long-term detrimental impacts to the logistics support system for the 
entire MH-65 fleet of aircraft. This provision required the Coast Guard 
to continue to operate the same fleet of aircraft as allocated on 
November 30, 2014, but with 4.5 percent fewer program flight hours and 
funding across the entire fleet. Excluding Search and Rescue, every 
mission set has been reduced in order to compensate for this decrement. 
Further, the funding gap created by this prohibition reduced the MH-65 
maintenance, sustainment, and logistics support system. Simply put, 
there are fewer funds to purchase the requisite consumables and spare 
parts inventory required to sustain MH-65 operations.
    By not closing the AIRFACs, Air Station Traverse City will continue 
to be gapped over 240 annual cutter deployment days. Additionally, the 
inability to move the AIRFAC helicopters means that the Coast Guard 
will be short of airframes for the pending MH-65D to MH-65E transition; 
negatively impacting both student through-put at the Aviation Training 
Center and the MH-65 product line at the Aviation Logistics Center. To 
mitigate these impacts and carry-out the D-E transition, the Coast 
Guard will have to pull airframes from other operational Air Stations. 
Currently, Air Station Barbers Point has been identified as one of the 
donor units and is scheduled to be gapped an airframe for 48 months to 
support the transition. This will result in lower mission hours and 
deployment days, including reduced flexibility to meet Rotary Wing Air 
Intercept support missions. The Coast Guard is in the process of 
evaluating where to find the remaining airframes needed to support the 
transition, while mitigating operational impacts.

    Question 6. I am aware of the role the Coast Guard plays in helping 
to defend the air space that surrounds the National Capital Region. 
What, if any changes does the Coast Guard intend to make to its 
procedures following the recent landing of a gyrocopter on the grounds 
of the U.S. Capitol complex?
    Answer. If detected by the Integrated Air Defense surveillance 
network, the Coast Guard's current procedures are appropriate for 
intercepting a gyrocopter-type track of interest. The Coast Guard 
utilizes its Title 10 authorities while conducting Operation Noble 
Eagle air defense operations in the National Capitol Region, under the 
tactical control of NORAD Eastern Air Defense Sector.

    Question 7. With the finalization of USCG Policy Letters 01-15[1] 
and 02-15[2] the Coast Guard has provided much needed regulatory 
guidance for liquefied natural gas (LNG) fueling/bunkering procedures. 
Given the recent launch of the Harvey Energy, an LNG-powered offshore 
supply vessel, and TOTE's LNG powered container ship, which will soon 
be in operation, interest in using LNG as fuel is growing in the 
maritime space. However, simultaneous operations (SIMOPs) and vessel 
design, primarily LNG fuel tank placement, have not yet been addressed 
by the Coast Guard. The maritime industry is looking to USCG for 
guidance on SIMOPS and vessel design/specifications. Is the Coast Guard 
examining these issues, and will the agency be publishing policy 
letters on these issues to address LNG's future as a propulsion fuel in 
the maritime industry?
    Answer. The Coast Guard is actively examining issues concerning 
SIMOPS and vessel design/specifications. Initial guidance concerning 
SIMOPS was published on February 19, 2015 after receiving public input 
through a public comment period. CG-OES Policy Letter 01-15, enclosure 
(1), paragraph e, under the discussion of transfer operations addresses 
SIMOPS. As discussed in that section, we recommend that a formal 
operational risk assessment be conducted to address the added hazards 
and evaluate the potential risks involved in conducting SIMOPS. The 
Coast Guard pointed to the best industry guidance available for 
conducting risk assessments involving SIMOPS and is currently working 
internally and with industry through Federal advisory committees to 
further develop guidance related to evaluating SIMOPS risk. Once that 
work is complete, the Coast Guard will work to make the information 
publicly available to the industry as quickly as possible. Vessel 
design/specifications, primarily LNG fuel tank placement is addressed 
in CG-ENG Policy Letter Equivalency Determination--Design Criteria for 
Natural Gas Fuel Systems 01-12, enclosure (1), paragraph 2.3.

    Question 8. Is anything preventing or complicating the Coast 
Guard's efforts to move forward on regulatory guidance that would 
enable U.S. flagged vessels to operate on cleaner burning alternative 
fuels such as LNG? Can or should Congress help to alleviate these 
burdens so that the U.S. Flag Fleet can take advantage of clean burning 
natural gas fuel?
    Answer. The boom in the U.S. Oil and Gas industry, particularly 
LNG, has resulted in a complex, dynamic, and rapidly evolving 
environment and the complexity of this issue has presented challenges 
to the Coast Guard. The Coast Guard has begun the initial steps toward 
developing a framework for vessels using LNG as fuel in order to 
establish the minimum industry safety requirements. Uninspected vessels 
using LNG as fuel presents unique challenges. Also, the continued 
growth in LNG and other energy sectors continues to challenge the Coast 
Guard's ability to efficiently meet statutory requirements and respond 
to industry requests.
    References related to QFR:

        [1] United States Coast Guard, Guidelines for Liquefied Natural 
        Gas Fuel Transfer Operations and Training of Personnel on 
        Vessels Using Natural Gas as Fuel, CG-OES Policy Letter No. 01-
        15, February 19, 2015.

        [2] United States Coast Guard, Guidance Related to Vessels and 
        Waterfront Facilities Conducting Liquefied Natural Gas (LNG) 
        Marine Fuel Transfer (Bunkering) Operations, CG-OES Policy 
        Letter No. 02-15, February 19, 2015.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                        Admiral Paul F. Zukunft
    Question 1. Tugboats and barges are the lifeblood of many remote 
Alaskan communities. I understand that the International Maritime 
Organization's Polar Code could impose additional regulations on this 
industry. What is the Coast Guard doing at an international level to 
ensure that these tugboat and barge operations can continue to provide 
safe and reliable freight service to these communities without undue or 
unnecessary regulatory constraints from the IMO Polar Code?
    Answer. The International Maritime Organization's (IMO) Polar Code 
contains two parts, safety-related provisions and environment related 
provisions. The safety provisions of the Polar Code are an 
international standard intended to regulate international shipping. As 
such this part applies to vessels on domestic routes only if they also 
engage in international trade. Additionally, these safety-related 
provisions are part of a risk-based code; vessel operations with a 
higher risk profile are subject to more stringent standards. This 
methodology is intended to apply maritime safety standards appropriate 
for the unique and broad spectrum of vessel operations in Polar 
Regions.
    The environment-related provisions of the Polar Code apply to a 
broader range of vessels including some domestic vessels that operate 
on coastal voyages. These provisions are in addition to the current 
standards set by the international convention for maritime pollution. 
These provisions are operational in nature and are intended to reduce 
intentional pollution by further restricting the overboard discharge of 
oil, chemical and garbage wastes, something that both tug operators and 
coastal communities serviced by those tugs generally see as a valuable 
benefit to minimize impact to the environment and food supply in Arctic 
waters.
    USCG hosted multiple public meetings and interactive public 
workshops to solicit input from stakeholders and consulted with experts 
from the Alaskan legislature's Arctic Policy Commission and American 
Waterways Operators who served on the U.S. Delegation negotiating the 
IMO Polar Code. These experts provided key insight toward stakeholder 
needs and helped identify requirements which balanced increasing 
protection with associated costs.

    Question 2. In Alaska, we rely on tugboats and barge vessels to 
supply our state, but we also need them to operate in the safest manner 
possible. I understand that over 10 years ago the Coast Guard was 
required to bring towing vessels under inspection by the Coast Guard 
and Maritime Transportation Act of 2004. The Coast Guard issued a 
Notice of Proposed Rulemaking in 2011, and my understanding is that the 
rule is currently under review at DHS. What steps is the Coast Guard 
taking to ensure that this rule is finalized as expediently as 
possible?
    Answer. The Coast Guard undertook a thorough review of the public 
comments received on the Notice of Proposed Rulemaking, and is working 
diligently to publish the final rule as quickly as possible. The 
Department also understands the importance of publishing the final rule 
as quickly as possible.

    Question 3. Last year, the National Science Foundation (NSF) 
testified before Congress, ``As the Coast Guard's heavy icebreakers--
POLAR STAR and POLAR SEA--approached the end of their design lifetimes, 
NSF found it necessary to contract for icebreaker support from other 
countries.'' Instead of being used to construct new U.S. icebreakers, 
U.S. taxpayer dollars are apparently being used to lease Russian, 
German, Canadian, and Swedish icebreakers. To the Coast Guard's 
knowledge, how prolific are these foreign leasing practices, and beyond 
NSF, do you know of other Federal agencies that are leasing foreign 
icebreakers?
    Answer. Beyond NSF, the Coast Guard does not know of any other U.S. 
Federal agencies which lease foreign icebreakers. NSF has not leased a 
foreign icebreaker since the POLAR STAR was reactivated in 2013.

    Question 4. What will be the Coast Guard's process and selection 
criteria for determining where to homeport the new Fast Response 
Cutters?
    Answer. The process for determining a cutter's homeport typically 
begins with the completion of a homeport feasibility study to identify 
and analyze locations that can accommodate a cutter's operational, 
logistical, maintenance, and personnel requirements. The Coast Guard 
evaluates viable site locations based on several factors, including 
proximity to cutter's primary operating area, availability of 
appropriate pier space, shore infrastructure considerations, 
environmental impacts, availability of local services, and cost 
analysis. The Coast Guard uses the study data, along with operational, 
maintenance/support, quality of life, environmental, and cost factors, 
to make a final homeporting decision.

    Question 5. Does the Coast Guard have plans to engage in outreach 
with the communities currently homeporting the Island Class cutters?
    Answer. The Coast Guard continues to evaluate potential FRC 
homeports including Island Class Cutter locations which meet the 
Integrated Logistics Support Plan and operational requirements. 
Communities which cannot support the FRC requirements and may lose 
their Island Class Cutter without a similar replacement will be 
engaged.

    Question 6. In 2011, Admiral Papp told the Senate Commerce 
Committee that the Coast Guard needs to establish a series of air 
stations and deploy small boats across the Alaskan Arctic. 
Specifically, he said, ``If an accident happens, how do we respond? 
And, right now, we've got zero capability to respond in the Arctic 
right now. And we've got to do better than that. That--when people ask 
me what keeps me awake at night--an oil spill, a collision, a ship 
sinking in the Arctic keeps me awake at night because we have nothing 
to respond or, if we respond, it's going to take us weeks to get 
there.'' Does the Coast Guard still maintain this concern, and what 
steps has the Coast Guard taken since this time to increase its Arctic 
infrastructure?
    Answer. The Coast Guard surges assets into the Arctic region using 
a mobile and seasonal approach to operations. When the human activity 
increases in the open water season (summer months), the Coast Guard 
forward deploys air and surface assets in the region. To support these 
activities, the Coast Guard leases hangar space and establishes a 
seasonal Forward Operating Location on the North Slope to ensure air 
response capabilities. This strategy is generally sufficient for the 
current level of human activity in the Arctic. As part of the annual 
operations, the Coast Guard evaluates requirements and drivers for 
potential permanent infrastructure in the Arctic. Much of the Coast 
Guard footprint is dependent on where future human activity and volume 
will be. Future development of infrastructure in the Arctic must 
incorporate the needs of all federal, local, state, and tribal 
stakeholders. The National Strategy for the Arctic Region and its 
Implementation Plan provides a roadmap on the Federal Government's 
approach to the region.
    To continue to meet its missions in the Arctic, the Coast Guard 
needs both icebreaking and mobile command and control capabilities. The 
Coast Guard's National Security Cutters-and the future Offshore Patrol 
Cutter-are critical to maintaining sovereign presence in the region 
during the summer months; ensuring American interests are protected 
during the height of human activity, shipping, and drilling in the 
region, and providing extended presence in the Gulf of Alaska and 
Bering Sea. Likewise, icebreaking capability is critical to providing 
needed icebreaker support in the high latitudes. Currently, the Coast 
Guard utilizes U.S. Coast Guard Cutters HEALY and POLAR STAR (one 
medium and one heavy icebreaker) for icebreaking needs in the Antarctic 
and Arctic, respectively. The Coast Guard is also actively engaged in 
pre-acquisition activities for a new Polar Icebreaker, and is 
collaborating with stakeholders to study operational requirements and 
the feasibility of alternatives for this National asset.

    Question 7. What is the Coast Guard doing to increase search and 
rescue capabilities in the Arctic?
    Answer. As outlined in the Coast Guard's Arctic Strategy, improving 
Search and Rescue capabilities will require leveraging international, 
state, local, and industry partnerships. Commander, Coast Guard 
District 17, is the SAR Coordinator for the Juneau Search and Rescue 
Region (SRR), which includes the Arctic Ocean. Coast Guard District 17 
coordinates these SAR operations with support from other countries, as 
well as with other Federal, State, local, and Tribal SAR and emergency 
response authorities. To enhance capabilities, D17 has led regional 
mass rescue exercises and workshops focused on local capabilities, and 
conducted training with state and international partners. The Coast 
Guard also deploys assets to the Arctic region in the summer months, 
when human activity peaks.
    In October 2015, the U.S. Government will host a Search and Rescue 
Table Top Exercise in Anchorage, Alaska. Led by the Coast Guard, 
Department of State, and Northern Command, this whole-of-government 
exercise will support both the U.S. Chairmanship of the Arctic Council 
and the National Strategy for the Arctic Region Implementation.

    Question 8. What does the Coast Guard envision the Arctic Coast 
Guard Forum accomplishing over the next two years of the United States' 
chairmanship of the Arctic Council?
    Answer. The Coast Guard looks to complete the process of formally 
establishing the Arctic Coast Guard Forum (ACGF) during the ACGF Summit 
meeting in October 2015. This will include the signing of a Joint 
Statement and agreement on the Terms of Reference as the foundational 
documents of the forum. Over the next two years, the Coast Guard plans 
to ensure the forum remains operationally focused, and looks to advance 
cooperation and information sharing among the arctic nations through 
the development of common operating protocols.

    Question 9. How many exercises will be conducted in the Arctic, 
where will these exercises take place, and how can local governments be 
active participants?
    Answer. There are several Coast Guard Arctic related exercises 
being planned for 2015 and 2016. These include:

  <bullet> Kotzebue Oil Spill Response Exercise, June 2015

  <bullet> 2013 Agreement on Cooperation of Marine Oil Pollution 
        Preparedness Response in the Arctic Operational Guidelines 
        Workshop, Washington, DC, September 2015

  <bullet> Search and Rescue TTX, Anchorage, AK, October 2015

  <bullet> Search and Rescue FTX, North Slope, AK August 2016

  <bullet> 2013 Agreement on Cooperation of Marine Oil Pollution 
        Preparedness Response in the Arctic Operational Guidelines TTX, 
        Anchorage and Washington, D.C., 2016

  <bullet> Arctic Security (MTSA-AMSC) exercise, Anchorage, AK 2016

  <bullet> Sector Anchorage Northwest Arctic SCP Workshop--Nome, AK, 
        2016

    It is Coast Guard policy to invite all relevant stakeholders to 
participate in the planning and execution of Coast Guard-sponsored 
exercises, including local level governments.

    Question 10. What sort of technology could be employed to enhance 
monitoring activities in the Arctic region regarding increased vessel 
and shipping activity and offshore development in all weather 
conditions?
    Answer. There are several types of technologies that can be used to 
enhance awareness of vessel and offshore activities including unmanned 
aircraft systems and use of satellites. Development of these 
technologies would benefit both public and private users of the Arctic 
waterways and are being pursued by both sectors. The Coast Guard is 
working with NORAD/NORTHCOM, Department of Defense, and Canada in order 
to study better satellite support for communications and weather 
observation. The Coast Guard is continuing to look for opportunities to 
partner with commercial providers offering both terrestrial and 
satellite Automated Identification Systems (AIS), Synthetic Aperture 
Radar (SAR), and Electro Optical Infrared (EO/IR) Systems. In addition, 
the Coast Guard is involved in international discussions to study and 
evaluate potential special Arctic requirements for carriage of tracking 
systems. Expanding Long Range Identification and Tracking (LRIT) system 
carriage requirements for non-commercial class ships and small vessels 
operating in the Arctic is also being considered.

    Question 11. Development of and further commercialization of the 
Arctic is coming. Indigenous peoples stand to benefit. Along with that, 
thousands of miles of coast and U.S. Arctic waters must be protected. 
What capabilities does the Coast Guard need to facilitate safe 
commercial operations in Alaska's Arctic?
    Answer. The National Strategy for the Arctic Region and its 
Implementation Plan provide a roadmap on the Federal Government's 
approach to assessing required capabilities in the region.
    The Coast Guard is committed to ensuring safe, secure, and 
environmentally responsible maritime activity in the Arctic, and Coast 
Guard response capabilities alone will not eliminate the risks 
associated with commercial operations in the region. As such, the Coast 
Guard is pursuing three major initiatives to increase safety and 
stewardship of the Arctic maritime domain: Polar Code, Port Access 
Route Study (PARS), and Arctic Waterways Safety Committee (AWSC). 
Collectively, they will better affect the manner in which vessels are 
constructed, operate, and how their crews are trained; the routes they 
will take; and finally, creation of a venue to better gain partner 
consensus on best management of the Arctic's ``transportation system''.

    Question 12. The 2010 Coast Guard bill required survey and 
classification of new fishing vessels greater than 50 feet in length, 
and for these vessels to remain ``in class.'' The Coast Guard is 
developing guidelines for Alternative Compliance Programs for some 
vessels currently on the water. Does the Coast Guard have the budget 
and manpower to have this Program in place by 2017 and fully 
implemented by 2020?
    Answer. Section 604 (f) of the Coast Guard Authorization Act of 
2010 states that ``No later than January 1, 2017, the Secretary of the 
department in which the Coast Guard is operating shall prescribe an 
alternative safety compliance program referred to in section 4503(d)(1) 
of the title 46, United States Code, as amended by this section.'' The 
Coast Guard does not anticipate a need for additional budget or 
manpower to finish developing alternative safety compliance programs by 
2017. An analysis is being conducted to determine the number of 
currently active vessels that will have to comply with an alternate 
safety compliance program, and how many separate programs may be needed 
based on region and/or fishery. This will be used to determine future 
budget and manpower needs related to the alternate safety compliance 
programs.

    Question 13. Further, this requirement has been law for five years, 
why is the Coast Guard only now conducting industry outreach?
    Answer. The Coast Guard has been conducting outreach and education 
efforts with industry since 2011. The first such effort was with the 
Commercial Fishing Safety Advisory Committee at their public meeting in 
Seattle in November of 2011. And, in conjunction with that meeting, the 
Coast Guard presented an overview of the 2010 Act requirements, which 
included alternate safety compliance programs, at the Pacific Marine 
Exposition in Seattle. During meetings in August 2013 (Washington, 
D.C.) and September 2014 (Providence, RI), the Advisory Committee 
helped the Coast Guard develop the requirements for alternate 
compliance programs. These meetings are always open to the public and 
held in fishing port areas, but generally result in limited industry 
attendance. Information on alternate compliance programs was again 
provided at the Marine Exposition in 2013, and a special presentation 
and question and answer session was dedicated to the requirements being 
considered for the programs; attendance by the industry was very 
limited. Also, presentations have been made at conferences such as the 
ComFish in Kodiak, Alaska; Massachusetts Lobstermen's Association; 
Maine Fisherman's Forum; Bering Sea Conference, Seattle; and with 
industry groups such as Alaska Tenderman's Association; Alaska Trollers 
Association; and Southern Shrimp Alliance. Over the past year, the 
Coast Guard has reached out to certain specific industry fleets and 
fisheries in the Pacific Northwest, Alaska, and Gulf of Mexico to field 
test/validate reasonableness of draft requirements with volunteer 
owners and operators who are modifying or undergoing yard periods with 
their vessels. This has been extremely helpful in validating the 
criteria the Coast Guard believes should be in the programs. The Coast 
Guard is currently determining the best method to get the alternate 
compliance proposed requirements out to the public for comment before 
finalizing them in 2017.

    Question 14. The Coast Guard has published a Port Access Route 
Study for the Bering Sea, which is currently out for public comment. 
How does the Coast Guard plan to incorporate concerns over congestion 
in the fishing grounds in its decision making process?
    Answer. The Coast Guard has sought input through multiple public 
comment periods in order to maintain transparency and learn if there 
are any concerns with a proposed action. The Coast Guard has heard some 
concerns from the fishing community and is determining if the proposed 
recommended route can be altered to address those concerns.

    Question 15. Major cutter days and HC-130 flight hours for 
fisheries monitoring and law enforcement are on a downward trend, 
particularly in the Bering Sea. In 2004, there were 788 major cutter 
days, but last year there was only 316-the lowest level in a decade. 
Please provide comments on asset deployment in the Aleutian Islands and 
Gulf of Alaska and to what extent coverage in these areas will be 
reduced, and will the Coast Guard's expanding role in the Arctic cause 
more resources to be diverted from the Bering Sea?
    Answer. The Coast Guard intends to maintain the same level of major 
cutter coverage in the Bering Sea as it has over the last several 
years. In FY13, there were 416 days of major cutter coverage for the 
Bering Sea and 30 for the Arctic. In FY14, there were 401 days of major 
cutter coverage for the Bering Sea and 41 for the Arctic. For FY15, 
there are 397 days scheduled for the Bering and 67 for the Arctic. It 
is anticipated that these levels will remain consistent in the near 
future. USCG operations in the Chukchi Sea and Beaufort Sea (north of 
the Bering Strait) are not expected to impact major cutter coverage of 
the Bering Sea.

    Question 16. Successful fisheries management relies on Coast Guard 
enforcement. Will you consider increasing major cutter days and HC-130 
resources hours in the Bering Sea?
    Answer. There is no plan to increase the allocation of major cutter 
days and HC-130 resources hours in the Bering Sea. Coast Guard will 
continue its standard protocol to deploy its resources and alter 
allocations as needed to address the greatest maritime risks.

    Question 17. How does the Coast Guard plan to monitor the large 
commercial fisheries in the Bering Sea and Arctic region to guard 
against illegal fishing and protect our national economic interest?
    Answer. In 2009, the National Marine Fisheries Service (NMFS) 
issued the Arctic Fisheries Management Plan (FMP) which includes a ban 
on commercial fishing in the U.S. Exclusive Economic Zone (EEZ) off the 
coast of Alaska in the Bering, Chukchi, and Beaufort Seas. The FMP will 
continue the ban until there is enough information available to 
determine the effects of increasing human activity on the newly exposed 
and fragile maritime ecosystem. This is a precautionary plan created by 
NOAA/NMFS and enforced by USCG. The Coast Guard will monitor the large 
commercial fisheries in the Bering Sea and Arctic region to guard 
against illegal fishing and protect our national economic interest 
through execution of Ocean Guardian, the U.S. Coast Guard's Fisheries 
Enforcement Strategic Plan.

    Question 18. How does the Government plan to address and monitor 
territorial disputes?
    Answer. The Department of State is the lead agency for monitoring 
territorial disputes between the United States and a foreign country. 
The Coast Guard will coordinate with the State Department on any 
maritime boundary disputes.

    Question 19. How does the Government propose to monitor the 
security of our national borders in the Arctic region, an emerging 
security issue?
    Answer. Monitoring the security of our national borders in the 
Arctic is a whole-of-government issue. The President's strategy and 
objectives are outlined in the National Strategy for the Arctic Region 
and its Implementation Plan. The Coast Guard has undertaken efforts to 
ensure safe, secure, and environmentally responsible maritime activity 
in U.S. Arctic waters. The Coast Guard monitors and assesses risks 
posed by increasing maritime activity, and allocates an adaptable mix 
of cutters, boats, aircraft and shore infrastructure to enable 
effective seasonal operations commensurate with prevailing activity 
levels and risk.

    Question 20. I note that the Coast Guard has been working with 
Greenpeace to ensure their waterborne first amendment activities at the 
Port of Seattle do not cause themselves danger or interfere with ship 
traffic. What operational challenges for the Coast Guard are posed by 
the activities of Greenpeace, whose members recently conducted an 
unauthorized boarding of a ship? Are these activities a distraction 
from your core missions?
    Answer. The Coast Guard's primary (core) missions include ensuring 
the safety of the maritime transportation system and the people that 
operate within it. As such, Coast Guard members are poised to protect 
commerce without interfering with Greenpeace's legitimate First 
Amendment activities. The Coast Guard has policy as well as tactics, 
techniques, and procedures (TTP) to guide operations involving maritime 
protest activities. With this, Operational Commanders work with protest 
groups, like Greenpeace, to identify a safe area where they can freely 
exercise their First Amendment activities while maintaining the 
integrity of safety and security zones as part of normal ports, 
waterways, and coastal security operations. Finally, Coast Guard TTP 
provides situation-dependent measured responses for protestors who 
choose to place themselves in danger or interfere with maritime 
traffic. In regard to the Port of Seattle First Amendment activities, 
Greenpeace has been cooperative and transparent in their plans, 
respecting the established safety zones, and communicating their 
intentions to the Coast Guard.

    Question 21. The Coast Guard recently proposed regulations to 
implement the Cruise Vessel Security and Safety Act of 2010 and the 
public comment period is now closed. What is the timeline for the Coast 
Guard to complete a review of the NPRM comments, hold any public 
hearings if necessary, and ultimately issue a final rule?
    Answer. The Coast Guard is considering all the comments from the 
NPRM and will respond to them in any Final Rule when it is issued. The 
Coast Guard does not have a timeline for when a Final Rule will be 
issued.

    Question 22. Given the current reductions in operational 
capabilities, what is the Coast Guard doing to engage with industry to 
aid the Coast Guard with maritime domain awareness?
    Answer. The Coast Guard has aggressively pursued partnerships with 
other U.S. agencies, allied nations, and industry to keep a current 
picture of maritime activity. Industry plays a vital role because of 
their cutting edge hardware, software, and sensors, as well as their 
interest in maintaining an efficient flow of goods and services. 
Initiatives such as sharing commercial satellite vessel locating data 
such as Automated Information System (AIS) reports are a good example 
of how Coast Guard capitalizes on commercial capabilities. 
Specifically, the Coast Guard has used AIS data from ORBCOMM, synthetic 
aperture radar data from RADARSAT and Terra SAR X and other vendors to 
assist in remote sensing of the maritime domain. The Coast Guard also 
uses other commercial services to access maritime data on cargo and 
vessel movement, port arrivals/departures, and to maintain awareness of 
current trends in trade on the world oceans.

    Question 23. To what extent does the Coast Guard rely on satellite 
surveillance for monitoring activities for Maritime Domain Awareness?
    Answer. Satellite surveillance capabilities are a key part of Coast 
Guard's multi-faceted maritime activity monitoring. The Coast Guard 
uses a wide variety of data to monitor the maritime domain and the 
maritime approaches to the United States. Together with other agencies 
in the United States, allied partners, and commercial providers of 
data, Coast Guard operations and intelligence personnel analyze vessel 
locations and activity. Satellite and terrestrial source data are fused 
to create a comprehensive picture of maritime events such as vessel 
movements, presence in sensitive or closed areas, and compliance with 
fisheries and pollution regulations. Satellite derived information, 
such as data from vessel Automatic Identification System (AIS), Long 
Range Identification and Tracking (LRIT) reports, Electro-optical and 
synthetic aperture radar (SAR) imagery, and intelligence community 
reporting from national technical means are a major source of 
information used to enhance maritime domain awareness. This is 
complemented by a host of source information from terrestrial sensors 
and observations of the maritime domain from partner agencies, allies, 
and the maritime industry.

    Question 24. The Coast Guard is only able to stop about 20 percent 
of the drug shipments that it knows about. What will it take to improve 
the Coast Guard's success against the illegal drug shipments?
    Answer. Continued recapitalization of the Coast Guard's aging Major 
Cutter fleet and 110 Patrol Boats with the National Security Cutter/
Offshore Patrol Cutter (OPC) and Fast Response Cutter (FRC), 
respectively, will significantly improve Coast Guard's capabilities to 
perform its Drug Interdiction mission. Like the major cutters before 
them, the NSC and OPC will provide the off-shore presence in the 
transit zone vital to combating Transnational Organized Crime (TOC) 
networks. Coast Guard presence in the Transit Zone, targeting the 
primary flow of illicit drugs in pure and bulk quantities, has the most 
direct and damaging impact on TOC drug smuggling networks.

    Question 25. How does satellite surveillance compare to aircraft 
patrols used in the International Ice Patrol mission for accuracy, 
reliability, environmental constraints, and cost?
    Answer. Satellite surveillance provides a capability similar to 
that of fixed-wing Maritime Patrol Aircraft (MPA) in most cases. Unlike 
aircraft, satellites can provide near continuous coverage of ice fields 
over a wider area than aircraft surveillance can provide, thus 
obviating the need to utilize aircraft to search for and report on 
iceberg locations. Additionally, satellites are generally immune to 
situations where unfavorable flight conditions are present. However, in 
cases where there is persistent cloud cover or significant ocean 
currents that affect iceberg movements, depending on the sensor, it may 
be more difficult to rely on information provided by satellites. 
Currently it takes over two weeks for satellites to make enough passes 
over the North Atlantic to frame together enough satellite imagery to 
completely saturate the iceberg limit area. While the comparative 
analysis is still in its early phases, timeliness and reliability of 
satellite data compared to flight patrols is the primary observed gap 
at this time. Costs of satellite use and aircraft activity vary and are 
dependent upon the amount of satellite imagery requested and collected 
during an ice season versus the number of reconnaissance missions. It 
is known, however, that multiple dedicated satellites would be cost 
prohibitive.
    The Coast Guard is continuously pursuing ways to improve maritime 
domain awareness to make operations more efficient, however, at this 
time it's too early to say whether satellite imagery can take the place 
of International Ice Patrol aircraft.

    Question 26. If satellite surveillance is used for the 
International Ice Patrol, are there other mission needs that the 
aircraft now used for those patrols could be freed up to be used for?
    Answer. Historically, the Coast Guard allocates approximately 500 
Maritime Patrol Aircraft (MPA) flight hours for International Ice 
Patrol operations each year. There is no plan at present to curtail or 
eliminate MPA flights that support the International Ice Patrol. 
However, if satellite surveillance were to become a reliable 
alternative to MPA flights, a portion of the aforementioned MPA hours 
could potentially be used for other priority Coast Guard activities.

    Question 27. With current international guidelines for ships 
operating in Arctic waters being updated, has the Coast Guard 
considered the use of satellite-based technology to monitor the 
increased commercial shipping on two trans-Arctic sea routes-the 
Northern Sea Route and the Northwest Passage?
    Answer. The Coast Guard already uses the National Technical Means 
(NTM) for MDA monitoring in the Arctic region.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Admiral Paul F. Zukunft
    Question 1. Admiral Zukunft, a few weeks ago we were underway on 
the Coast Guard Cutter Vigorous as it patrolled off the coast of Key 
West, Florida. A lot has changed since that ship was built in 1967. I 
am concerned about the reliability of these older ships. How much time 
is spent maintaining and repairing these cutters?
    Answer. The Coast Guard's maintenance policy is to dedicate 143 
days of depot maintenance per year for 210-ft medium endurance cutters, 
which supports the execution of one dry-dock availability every four 
years (8-10 weeks in duration), two dockside availabilities every four 
years (8 weeks in duration), and other routine maintenance during 
normal in-port periods. In the past two years, the Coast Guard has 
performed emergency dry-docks for four of the fourteen 210-ft medium 
endurance cutters due to deteriorating steel structure.
    The Coast Guard can report that significant strides in efforts to 
recapitalize the fleet have recently been made. In FY 2014 the Coast 
Guard awarded contracts for preliminary and contract design of the 
Offshore Patrol Cutter (OPC). Preliminary Design Review has been 
conducted and the program remains on schedule. The OPC will serve as 
the backbone of the Coast Guard's strategy to project and maintain 
offshore presence in concert with the extended range and capability of 
the National Security Cutter (NSC) and the enhanced coastal patrol 
capability of the Fast Response Cutter (FRC). In addition to the recent 
production award for the eighth NSC, the Coast Guard commissioned the 
fourth NSC into service last year, christened the fifth, began 
fabrication of the sixth and initiated pre-fabrication activities for 
the seventh NSC. NSCs are proving very successful at providing the 
Coast Guard the requisite capabilities to perform the full range of 
missions in the offshore environment. The twelfth FRC has been 
commissioned in Key West, completing the fleet of six cutters there and 
in Miami, where FRCs are already proving invaluable to counter-drug and 
counter-migration efforts in the Straits of Florida and maritime 
approaches to the southeastern United States.

    Question 2. Admiral Zukunft, the Associated Press released a report 
a few weeks ago stating that a drilling platform that had been toppled 
due to Hurricane Ivan is leaking oil at a higher rate than previously 
estimated. Based on a report submitted by a Taylor Energy contractor in 
March of 2013, Federal officials estimated the site to be discharging 
approximately 12 gallons per day. One year later, in March of 2014, 
those estimates were lowered to about 4 gallons of oil a day leaking 
from the site. Again, the estimates were revised just a few months 
later in August of 2014 and these estimates were significantly larger, 
roughly 84 gallons per day of oil leaking. The Coast Guard said in 2008 
that the Taylor Energy leak posed a ``significant threat'' to the 
environment. In the 7 years since this statement and having the 
responsibility of Federal On Scene Coordinator, what tangible or 
physical action has been directed by the Coast Guard to Taylor Energy 
to either reduce or stop the leak flow or identify and quantify the 
severity of the leak at the subsurface level?
    Answer. In 2008, the Coast Guard, as the Federal-On-Scene 
Coordinator (FOSC), issued Taylor Energy an Administrative Order that 
required Taylor Energy to, among other things, install a subsea 
containment dome system to recover product released from the wells and 
to conduct daily overflights of the MC-20A well site to visually 
monitor the oil discharges.
    Since then, Taylor has contracted daily overflights of the area 
that, include Coast Guard and BSEE observers, to monitor the discharge 
and report findings regarding the presence and estimated volume of oil 
on the ocean surface to the National Response Center. In the event that 
recoverable product is identified, Taylor Energy is responsible for 
performing the recovery and has responded, at the direction of the 
FOSC, to recover product on four occasions.
    In 2009, a subsea containment system (domes placed over projected 
leaking well sites) was installed on the seafloor at the MC-20A site. 
In March 2012, an incident action plan (IAP) was approved by the 
Unified Command (UC) that established standard procedures for 
monitoring the site and responding to discharges. In 2012, due to 
problems with the original containment system, the FOSC issued an 
Administrative Order requiring the design, construction, and 
installation of a new containment dome that will more effectively 
capture the ongoing discharge from the site. Along with the design 
specifications, the Administrative Order directed Taylor Energy to 
submit a written plan including a projected timeline for fabrication 
and installation (as of May 1, 2015, the final engineering design of 
the new dome is not complete, and the dome has not been installed). In 
2013, the last remaining operational containment dome was 
decommissioned due to damaged components and lack of efficiency/
recovery of oil. In August 2014, the UC led a joint aerial observation 
workshop that included the Coast Guard, BSEE, NOAA, and Taylor Energy's 
representatives and contractors. At that workshop, the aerial 
observation methodology used to estimate quantity and rate of discharge 
was reviewed and revised.
    The Coast Guard and NOAA have placed observers on the Taylor 
Energy-contracted flights to verify the new approach is being followed. 
The Coast Guard believes that the consistency of sheen size and rate of 
discharge estimates from reporting parties has improved since this 
workshop. Since 2008, the Coast Guard FOSC has led monthly UC meetings 
with representatives from BSEE, NOAA, and Taylor Energy.

    Question 3. Based on this direction, has Taylor Energy satisfied 
the expectations of the Federal On Scene Coordinator?
    Answer. The Coast Guard, working with the UC members, is committed 
to exploring all options to control and contain the oil that is 
discharging from the well site and to ensure Taylor Energy works to 
permanently stop the ongoing oil spill. The Coast Guard remains 
committed to Responsible Party oversight and coordination to contain 
and recover as much discharge product as possible, mitigate 
environmental impacts, and pursue all available response options. 
Taylor Energy will only have met its obligations under the Oil 
Pollution Act of 1990 and as directed by the Federal-On-Scene 
Coordinator when the source of the discharge has been secured.

    Question 4. Admiral Zukunft, the Offshore Patrol Cutter is the 
Coast Guard's top priority in the continuance of the Coast Guard fleet 
recapitalization efforts. The Fiscal Year 2016 budget allots $18.5 
million for the program. You have testified that the OPC program needs 
actually much more than that to move into the next phase. Tell me about 
consequences if the Coast Guard does not receive the funding needed to 
advance the OPC?
    Answer. The 2016 request is consistent with the support required 
for the planned activities in 2016. The Coast Guard's 5-year Capital 
Investment Plan (CIP) shows the estimated level of funding (e.g., 
$100M in 2017) that would be needed to keep the OPC acquisition on its 
planned schedule. Significant deviation from the CIP that delays the 
planned schedule could adversely affect the OPC acquisition strategy 
resulting in higher costs. Additionally, OPC schedule delays exacerbate 
Medium Endurance Cutter reliability issues described in Q1.

    Question 5. Admiral Zukunft, I'm concerned about drug interdiction 
in the drug transit zones of the Eastern Pacific and Western Caribbean. 
Will the Navy's focus on the Pacific impact the drug interdiction 
mission, ``other law enforcement' missions, and other statutory 
missions of the Coast Guard?
    Answer. The Navy's focus in the Asia-Pacific region, and the 
decommissioning of the Perry-class frigates, has impacted the Coast 
Guard's drug interdiction and other law enforcement (protection of the 
U.S. EEZ from foreign fishing vessel incursions) missions, as fewer 
Navy assets in the drug transit zone are available. We continue to 
conduct and witness significant interdictions in the region. This is 
primarily as a result of increased intelligence sharing and mission 
coordination with our international partners resulting in over 91,497 
kilos of cocaine interdicted in FY 2014. As part of the U.S. Strategy 
for Engagement with Central America, we envision even more successes as 
we focus on aiding partner nations in disrupting transnational criminal 
organizations in the maritime domain. The most effective detection and 
monitoring (D&M) and interdiction and apprehension (I&A) package in the 
drug transit zone is a combination of maritime patrol aircraft, a ship 
with an embarked helicopter, and multiple over-the-horizon pursuit 
boats with USCG law enforcement boarding teams, guided by a command 
cadre with mission-specific knowledge and experience. The Navy's 
rebalance can still assist the Coast Guard's law enforcement mission 
through initiatives such as the Oceania Maritime Security Initiative 
(OMSI), embarking LEDETs and shipriders for maritime surveillance and 
boardings within the EEZs of Pacific Island Nations, and monitoring 
activities during transits through remote National Marine Sanctuaries 
and Monuments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                        Admiral Paul F. Zukunft
    Question 1. Admiral Zukunft, I'm aware that the Coast Guard is 
constructing a new pier in Cape May. What is the status of the project?
    Answer. The project is expected to be complete in the summer of 
2016. In-water work will begin on 1 July 2015 in accordance with 
approved environmental permits.

    Question 2. Admiral Zukunft, destabilization in Central America, 
particularly in the countries of El Salvador, Honduras, and Guatemala, 
is readily apparent through the influx of unaccompanied children from 
those countries we've seen across our borders recently. Please discuss 
the Coast Guard's strategy in the Western Hemisphere to support 
stability in the region?
    Answer. The Coast Guard's Western Hemisphere Strategy identifies 
three strategic priorities to help achieve regional stability: 
combating networks, securing borders, and safeguarding commerce. This 
three-pronged strategy aims to improve Western Hemisphere stability by 
addressing major regional issues, such as the rise of Transnational 
Organized Crime (TOC) networks, the impacts of climate change, and the 
challenges of globalization and technological advances. The strategy 
emphasizes the importance of offshore vessel and aircraft presence. 
Specific priorities in this strategy also link to broader strategic 
concepts including capable governance, unity of effort, as well as 
effective international engagement and contingency response.

    Question 3. How does the Coast Guard's acquisition of the Offshore 
Patrol Cutter and the National Security Cutter nest inside this 
strategy?
    Answer. Coast Guard offshore capability provides persistent 
presence across the high-risk areas of the Western Hemisphere. 
Sustaining this presence is essential to meeting our performance goals. 
Major cutters and patrol boats provide this capability by engaging TOC 
networks at sea, where they are most vulnerable. Successful at-sea drug 
interdictions and subsequent prosecutions lead to actionable 
intelligence on future events, which produce follow-on seizures and 
additional intelligence, thus feeding a cycle of success. Targeting the 
primary flow of illicit drugs, in pure and bulk quantities has a direct 
and damaging impact on TOC networks.

    Question 4. Admiral Zukunft, the Coast Guard is often referred to 
as ``the nation's first responders'' because it is typically the first 
on the scene in a crisis. Your rapid response to disasters like 
Hurricane Sandy and the Deepwater Horizon oil spill are no coincidence-
it's the product of training. Coast Guard members are trained to 
carefully assess the risks and benefits when there's an emergency, so 
they know whether and how to react without having to wait for orders. 
With proposed cuts in the Coast Guard's budget and growing operational 
demands, what steps will you take to guarantee that we preserve this 
critical capability?
    Answer. The Coast Guard's commitment to maintaining the Nation's 
preparedness to confront myriad crises remains undiminished. Using 
updated and new crisis response doctrine and policy, we emphasize the 
importance of contingency exercises and training to position our 
responders to continue to be ready in an all hazards, all threat 
environment. The recent release of our new Incident Management Handbook 
(IMH), as well as the publication of our Incident Management and Crisis 
Response doctrine, is indicative of our commitment to serve and 
respond.
    In 2013, the Coast Guard created the Coast Guard Incident 
Management Assistance Team (CG-IMAT) to provide advanced Incident 
Command System (ICS) surge support to our Operational Commanders in the 
field during nationally and regionally significant incidents. This 33-
person deployable team has advanced ICS training and deploys 
experienced personnel to augment our Sectors. The National Strike Force 
also provides highly trained professionals for oil spill and hazardous 
material responses. In addition, both Coast Guard Atlantic Area and 
Pacific Area Commands maintain collateral duty IMATs which provide 
further additional surge capacity.
    The Coast Guard continues recapitalization of its surface, air and 
shore assets to ensure that we remain ready to confront all threats and 
hazards in the maritime domain. The Coast Guard is delivering National 
Security Cutters, Fast Response Cutters, Response Boats-Medium, 
Response Boats-Small Generation II, cutter boats, HC-144A Ocean Sentry 
Maritime Patrol Aircraft (MPA), HC-130J Long Range Surveillance 
Aircraft, and command and control systems--equipping our men and women 
with the appropriate tools to execute the Coast Guard's many missions, 
including response to contingency operations. The Coast Guard is also 
in the preliminary and contract design phase for the Offshore Patrol 
Cutter (OPC), which will replace the legacy medium endurance cutter 
fleet.

    Question 5. Admiral Zukunft, the melting polar ice is leading to a 
significant increase in commercial and noncommercial activity in Arctic 
waters. The United States is at risk of being unable to support 
national interests in the region and our sovereignty weakened. The 
Coast Guard only has two operational ice breakers in its fleet. And of 
those two icebreakers, one is over 30 years old and one has limited 
icebreaking capabilities. A new heavy duty icebreaker is estimated to 
cost $1 billion and may take up to a decade to enter service. Do you 
have enough assets to support the polar operations mission?
    Answer. With the recent reactivation of CGC POLAR STAR in 2012, the 
Coast Guard has one heavy and one medium icebreaker. Coast Guard 
Cutters HEALY and POLAR STAR provide the capacity necessary to address 
the service's near-term icebreaking needs. The Coast Guard expects to 
complete the requirements for the new polar icebreaker in 2015 so that 
preliminary design studies may be initiated in 2016.

    Question 6. How many icebreakers do we need to have adequate 
presence in the Arctic?
    Answer. The Coast Guard maintains presence in the Arctic through 
deployment of surface and air assets (including icebreakers). 
Icebreakers also provide presence through continued support of the 
science community as part of the Federal research fleet. The Coast 
Guard has successfully met user demand through a mobile and seasonal 
Arctic presence with CGC HEALY's annual summer deployments and 
distribution of other surface, air and ashore assets to the Arctic 
region under the auspices of Coast Guard District Seventeen's Operation 
Arctic Shield. In the future, the number of U.S.-owned icebreakers 
needed in the Arctic will depend on the requirements to perform 
inherently governmental missions in and around ice-covered waters.

    Question 7. How important is it to recapitalize the icebreaking 
fleet?
    Answer. The Coast Guard's heavy icebreaker capability is outdated, 
and the only active ship (POLAR STAR) is operating with unreliable 
systems. CGC HEALY is a medium icebreaker that will reach the end of 
its planned service life in 2030. Given the long lead time required to 
build a polar icebreaker, it is critical to maintain planned progress 
on Coast Guard's new icebreaker acquisition if we are to maintain an 
organic icebreaking capability.

    Question 8. At what point do you take action and recapitalize, 
rather than wait for a `whole of government' funding stream?
    Answer. The Coast Guard is proceeding on schedule with acquisition 
of a new polar icebreaker that was initiated in 2013. In the short-
term, the Coast Guard also has requested $6 million in the FY16 budget 
to conduct a Material Condition Assessment and Alternatives Analysis on 
the potential reactivation of POLAR SEA. Following these assessments, 
the Coast Guard will have a better understanding of the feasibility and 
associated cost of reactivating POLAR SEA.

    Question 9. How much Coast Guard presence should be in the Arctic?
    Answer. The Coast Guard is committed to ensuring safe, secure, and 
environmentally responsible activity in the Arctic. As outlined in the 
Coast Guard's Arctic Strategy, the Coast Guard plans to utilize a 
``mobile and seasonal'' approach to operations over the coming decade. 
The Coast Guard will closely monitor evolving Arctic activities, 
reallocate assets, and make new investments, as resources allow, 
addressing emerging operational requirements.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Admiral Paul F. Zukunft
    Question 1. Admiral Zukunft, Arctic countries signed an Arctic 
Search and Rescue Agreement in 2011. The Arctic Council conducted its 
first Search and Rescue exercise in 2012. SAR capabilities are becoming 
more important as tourism, transportation and oil and gas development 
increase in the Arctic. Please outline what steps the Coast Guard has 
taken to prepare and respond to a maritime casualty incident in the 
Arctic.
    Answer. As outlined in the Coast Guard's Arctic Strategy, 
increasing Search and Rescue (SAR) capability requires leveraging 
partnerships, including international, state, local and industry. The 
Commander, Coast Guard District 17, is the SAR Coordinator for the 
Juneau Search and Rescue Region (SRR), which includes the Arctic Ocean. 
Coast Guard District 17 coordinates SAR operations with support from 
other countries, as well as with other Federal, State, local, and 
Tribal SAR and emergency response authorities. To enhance capabilities, 
the district has led regional mass rescue exercises and workshops 
focusing on local capabilities and conducted training with state and 
international partners. The Coast Guard also deploys assets to the 
Arctic in the summer months, when human activity in the region peaks.
    In October 2015, the U.S. Government will host a Search and Rescue 
Tabletop Exercise in Anchorage, Alaska. Led by the Coast Guard, 
Department of State, and NORTHCOM, this whole-of-government exercise 
will support both the U.S. Chairmanship of the Arctic Council and the 
National Strategy for the Arctic Region Implementation Plan, and it is 
designed to test elements of the 2011 Arctic SAR Agreement.
    To prepare for potential future operations, the Coast Guard also 
tests the multi-mission capabilities of technologies and assets during 
the annual operation Arctic Shield.

    Question 2. What are the Coast Guard's limitations to responding to 
a Search and Rescue incident in the Arctic?
    Answer. Search and rescue by the Coast Guard is conducted by 
deployable assets in the region which, like all SAR assets, are limited 
by prescribed range and endurance parameters. Lack of permanent 
infrastructure also reduces the Coast Guard's ability to obtain fuel 
and provisions or conduct repairs and maintenance on assets in theater, 
if required.

    Question 3. How does the U.S. contribute to the international 
Search and Rescue Agreement?
    Answer. As detailed in the International Maritime Organization's 
(IMO) International Convention on Maritime Search and Rescue, 1979 
(``SAR Convention''), nations establish national SAR systems to provide 
SAR services to meet national and international humanitarian and legal 
obligations. Under the SAR Convention, the world is divided into Search 
and Rescue Regions (SRRs); these SRRs are formally established by 
agreement between nations. The United States is an integral component 
of the global SAR system; the Coast Guard, as the designated SAR 
Coordinator for the U.S. maritime SAR regions, is responsible for 
coordinating SAR operations within these SRRs.
    To fulfill the SAR Convention's requirements, in 2011 the eight 
Arctic Council nations negotiated and concluded the Arctic SAR 
Agreement. This agreement serves at the basis for international 
cooperation and coordination of Arctic SAR operations. The Commander, 
Coast Guard District 17, is the SAR Coordinator for the Juneau SRR, 
which includes the Arctic Ocean. Coast Guard District 17 coordinates 
SAR operations with support from other countries, as well as with other 
Federal, State, local, and Tribal SAR and emergency response 
authorities.

    Question 4. In what ways does the U.S. rely on other countries for 
search and rescue capabilities and assistance?
    Answer. The international SAR system is based on the premise that 
all available resources should be utilized to conduct lifesaving 
operations. The United States coordinates with other countries' Rescue 
Coordination Centers (RCCs) to determine what resources are available 
and can be employed to conduct a SAR mission. In the Arctic, for 
example, the U.S. Coast Guard works with other countries, primarily 
Canada and the Russian Federation, to respond to persons in distress 
within the U.S. maritime SAR Region (SRR) in the Arctic Ocean. The 
U.S., in turn, supports Canadian and Russian Federation SAR operations 
within their respective SRRs, as applicable.

    Question 5. In addition to investments in vessels and aircraft, 
what other tools does the United States need to improve safe maritime 
transportation in the Arctic?
    Answer. Industry and other maritime transportation stakeholders 
play a significant role in both demand and allocation of resources for 
safeguarding maritime transportation. The National Strategy for the 
Arctic Region provides a roadmap on the Federal Government's approach 
to the region.

    Question 6. Admiral Zukunft, the Coast Guard is in need of 
recapitalizing its legacy cutter fleets. There are 1 Coast Guard 
cutters that are nearly 35 years old and some cutters that are nearly 
50 years old. I am very pleased to see four of the eight approved and 
funded National Security Cutters in service, and twelve of the 58 Fast 
Response Cutters listed in the Coast Guard's program of record, also in 
service. With so many vessels required in the Coast Guard's program of 
record-91 total--I would like to better understand the Coast Guard's 
procurement authority with respect to the Offshore Patrol Cutter. Has 
the Coast Guard considered multiyear procurement for the Offshore 
Patrol Cutter, or any other vessel class or aircraft? Why or why not?
    Answer. The OPC acquisition strategy could support a multi-year 
procurement (MYP) strategy if it meets the statutory criteria (e.g., 
substantial savings over annual buys, stable funding and stable 
design).

    Question 7. What, if any, are the risks to the Coast Guard by 
utilizing multiyear procurement if approved by Congress?
    Answer. If multi-year procurement (MYP) is used, and if subsequent 
years funding were not available, the Coast Guard would be required to 
renegotiate or cancel the contract. Cancelling the contract could 
require the Government to pay a cancellation fee to the contractor. 
Renegotiating the contract would also have a financial impact.

    Question 8. What are the potential cost savings to the Coast Guard 
if multiyear procurement was employed for the Offshore Patrol cutter?
    Answer. Multi-year procurement (MYP) can be beneficial for shipyard 
material and labor cost management. Optimally-phased and stable 
production schedules establish the best scenario for shipyard learning, 
leading to reduced labor costs. In addition, multiple ship sets of 
supplies and materials may be procured at reduced cost due to 
purchasing in quantity.

    Question 9. What type of Coast Guard infrastructure and response 
planning efforts are being done to address the risks of transporting 
crude by rail in, on, or adjacent to a navigable waterway?
    Answer. For the last three fiscal years, the Coast Guard has 
provided strategic planning direction to field units to assess new oil 
sources, including rail, and to incorporate these risks in Area 
Contingency Plans. Through our sustained engagements in Harbor Safety 
Committees, Area Maritime Security Committees, and Area Committee 
meetings, we have conducted several Bakken and shale oil awareness 
training seminars, a national crude by rail webinar and have 
coordinated outreach efforts with interagency partners like the 
Department of Transportation and the Environmental Protection Agency 
(EPA) to establish and disseminate vital first response training 
programs, including an online orientation for On-Scene Coordinators 
assembled by the National Response Team.
    The Coast Guard is conducting the first Consensus Ecological Risk 
Assessment involving rail as a source this summer, a tool previously 
used to compare tradeoff impacts of offshore response countermeasures. 
Moreover, our National Strike Force has responded to several Bakken and 
shale oil related rail incidents, and working with NOAA's Scientific 
Support Coordinators, has recorded critical information on the 
characteristics and fate of Bakken and shale oil discharges in the 
inland and coastal environments.
    The Coast Guard is supporting the Department of Transportation, in 
coordination with the EPA, the Federal Emergency Management Agency 
(FEMA), the U.S. Fire Association, the Association of American 
Railroads, and the American Petroleum Institute to create an in-depth 
training program with videos and scenario animations for local, state, 
and Federal response personnel. This training program covers the 
relationship between local and state emergency response plans and the 
National Oil and Hazardous Material Contingency Plan. The training 
program further addresses the types of response infrastructure 
available to first responders and crisis management resources provided 
by the railroad industry and applicable Federal special teams from the 
National Response Team.
    Based partially on the emergence of this issue relative to new oil-
by-rail corridors, the Coast Guard initiated and is leading an 
interagency subcommittee of the National Response Team to improve the 
process of meeting environmental consultation and compliance 
requirements of Federal statues, such as the Endangered Species Act, as 
they apply to oil and hazardous substance response and preparedness 
activities.

    Question 10. What is being done at the Federal level to address 
spill risks and calculations by region?
    Answer. Coordinated by the National Security Council staff, an 
interagency team identified threats within each EPA and FEMA Region, 
Federal resources available to help the whole community prepare for 
crude by rail transportation incidents, and classification of states 
based on the volume of crude-by-rail as identified under a Department 
of Transportation Emergency Order. The interagency team conducted 
conference calls with the 48 states in the lower continental United 
States and the District of Columbia. State participants included 
directors and deputies from state emergency management and homeland 
security agencies, environmental agencies, transportation agencies, 
state fusion centers, and local police and fire departments. Upon 
conclusion of their analysis, the interagency team developed a 
coordinated communications strategy for the multiple Federal agencies 
involved with public outreach related to the shipment of shale crude 
oil by rail tank car. The strategy included significant rollout 
activity schedules, key messages, talking points, and frequently asked 
questions.
    The material from this effort included summary information on shale 
oil spill risks and calculations by region, including identifications 
of railroads carrying high volumes that are proximal to navigable 
waterways. These documents were disseminated to Coast Guard operational 
field units, briefed during a special national webinar, and posted on a 
secure portal site for Coast Guard prevention and response personnel to 
incorporate into their Area Contingency Plans.

    Question 11. What type of oil spill response and coordination 
exercises are taking place to address marine oil spills by rail?
    Answer. The Coast Guard is working with the EPA in the development 
of a series of discussion-based exercises involving an Inland Spill of 
National Significance (SONS) due to a rail incident. The current 
scenario involves the derailment of a train carrying Bakken crude oil 
in the Columbia River Gorge area; the ensuing oil spill will begin in 
EPA jurisdiction and flow into USCG jurisdiction. There are currently 
three seminars planned using this scenario as the basis of discussion: 
Regional Response Team 10s regional-level seminar (September 2015), a 
National Response Team seminar (October 2015), and an Executive Seminar 
with agency Principals (January 2016). There are also plans to 
incorporate national issues arising from the FEMA 2015 Operation Safe 
Delivery exercise series into the Executive Seminar. The Coast Guard 
was a participant in the Jersey City pilot of the FEMA Operation Safe 
Delivery exercise, and presented on our involvement in the 
environmental response to the West Virginia oil train derailment.
    Coast Guard has conducted or been a participant in a number of 
exercises and responses involving tank car derailment and a subsequent 
release of oil or hazardous materials. Each of these events provides an 
opportunity to enhance the Coast Guard's preparedness to respond to 
these situations. Recent examples include:

   (1)  June 4, 2014, Marine Safety Unit (MSU) Toledo: workshop to 
        gather information regarding the transportation of Bakken Crude 
        Oil through the MSU Toledo Area of Responsibility (AOR).

   (2)  January 21, 2014, Sector Delaware Bay: real-world event, actual 
        derailment of tank cars, none leaked, but provided opportunity 
        to learn more on rail transport of Bakken crude through the 
        Sector Delaware Bay AOR.

   (3)  August 23, 2014, Sector Delaware Bay: full scale exercise with 
        New Castle County Local Emergency Planning Committee (LEPC) 
        simulating a fire from a leaking tank car containing Bakken 
        crude.

   (4)  November 12, 2014, Sector Buffalo: Spill Management Team (SMT) 
        table top exercise to discuss additional boom deployment 
        locations along Cattaraugus Creek in the vicinity of Irving, NY 
        to improve the ability to respond to a potential Bakken crude 
        oil discharge from a rail car accident.

   (5)  August 26, 2014, Sector Buffalo: boom deployment drill along 
        Cattaraugus Creek in the vicinity of Irving, NY to improve the 
        ability to respond to a potential Bakken crude oil discharge 
        from a rail car accident.

   (6)  June 11, 2014, MSU Duluth: table top exercise to improve 
        preparedness by simulating a major oil spill of approximately 
        30,000 gallons of Bakken Light Crude Oil from a derailed 
        train's tank car on the Grassy Point Swing Bridge.

   (7)  April 11, 2014, Sector Buffalo: quarterly notification drill, 
        to ensure proper notifications are accomplished in the event of 
        a derailment and spill of Bakken crude into a waterway of the 
        Sector Buffalo AOR.

   (8)  July 10, 2013, MSU Toledo: table top exercise, provided a venue 
        to learn how a major U.S. railroad responds to a derailment, 
        how their contractors/equipment are mobilized, timelines for 
        mobilization, how they use ICS to coordinate on-scene 
        operations, how their ICS is set up, how they would blend into 
        a Unified Command, and how they would work with local/Federal 
        first responders (USCG, USEPA, OH EPA, various fire & rescue 
        departments, police and sheriff departments, county emergency 
        management agencies, etc.).

   (9)  August 12, 2014, Sector Delaware Bay: table top exercise at 
        Gloucester County (NJ) Fire Academy, simulated crude oil train 
        derailment to validate procedures and develop a planning guide 
        that municipalities can use to promote successful mitigation of 
        a bulk flammable liquid event.

  (10)  March 15, 2015, Sector Buffalo: quarterly notification drill, 
        to ensure proper notifications are accomplished in the event of 
        a derailment and spill of Bakken crude into a waterway of the 
        Sector Buffalo AOR.

  (11)  August 25, 2014, Sector Lake Michigan: full scale exercise, oil 
        spill response exercise involving a simulated derailment and 
        release of diluted bitumen (DILBIT), a heavy oil, into Sauk 
        Creek, Port Washington, WI.

  (12)  March 27, 2014, Sector New York: table top exercise, exploring 
        response to derailment and spill of tank cars into the Hudson 
        River near West Point, NY.

  (13)  September 6, 2013, Sector Tampa-St Petersburg: real world 
        event, derailment and spill of tank cars leaking ethanol.

  (14)  November 30, 2012, Sector Delaware Bay: real-world event, 
        derailment and hazardous substance release at Paulsboro, NJ.

    Question 12. Admiral Zukunft, NOAA installed specialized high 
frequency radar stations along much of the United States coastline. 
Unlike Doppler radar which measures weather in the atmosphere, high 
frequency radar or ``H.F.R.'' measures fine scale sea surface currents. 
Sea surface current data has important applications for Coast Guard 
search and rescue, harmful algal bloom mapping and oil spill response. 
There is only one high frequency radar station installed in Washington 
State-at the southernmost corner-leaving much of Washington State 
without coverage. How has H.F.R. data improved search and rescue 
modeling in the mid-Atlantic?
    Answer. The surface current fields, measured by High Frequency 
Radar (HFR) and derived by the associated Short-Term Prediction System 
(STPS), are used directly by the Coast Guard's Search and Rescue 
Optimal Planning System (SAROPS) for search object drift predictions. 
These drift predictions result in more accurate search object 
probability distributions. Search efforts based on these distributions 
lead to more efficient and effective searching.

    Question 13. How is Washington State at a disadvantage without this 
system?
    Answer. In maritime regions with no High Frequency Radar (HFR) 
data, SAROPS utilizes currents from regional and global models in its 
search object drift predictions. These models are highly sophisticated 
and provide the best water current information available when actual 
data, such as that provided by HFR, are not available. Search object 
probability distributions under these circumstances may be less 
accurate than those that utilize HFR data.

    Question 14. Admiral Zukunft, The International Maritime 
Organization (IMO) adopted the Polar Code amendments into the 
International Convention for the Safety of Life at Sea. These 
amendments created mandatory safety requirements for ships operating in 
the Arctic and Antarctic waters on shipboard training, mariner 
certification, navigation and operational assessments. Without seasonal 
ports (operating bases) to conduct inspections and evaluations of 
vessels transiting the Arctic, how will the United States hold the 
vessels traveling to the Arctic accountable?
    Answer.

  <bullet> The Polar Code is expected to come into force on January 1, 
        2017. It will apply to new vessels after that date. Vessels 
        built before that date will be required to meet the relevant 
        requirements by the first intermediate or renewal survey after 
        January 1, 2018. The Coast Guard is currently evaluating its 
        compliance programs to incorporate Polar Code compliance 
        requirements.

  <bullet> Domestic inspected vessels must undergo periodic inspection 
        for certification and mid-period inspections. The Coast Guard 
        verifies compliance of these vessels with the applicable 
        domestic and international standards during these inspections. 
        Most inspections are expected to occur outside of the Arctic 
        region, in homeports or ports of call. The vast majority of 
        inspections are not expected at remote Arctic locations.

  <bullet> Foreign vessels subject to the Polar Code will be subject to 
        oversight from their Flag State. These vessels may also be 
        subject to Port State Control examinations by the Coast Guard 
        should they call in a U.S. port.

  <bullet> Enforcement of the Polar Code will consist of both periodic 
        inspections and employment of Maritime Domain Awareness 
        information such as Notice of Arrival and Automatic 
        Identification System (AIS) information. The seasonal 
        deployment of personnel, aircraft, and surface vessels as part 
        of Operation Arctic Shield provides law enforcement capability 
        during months where decreased ice coverage permits vessel 
        traffic.

    Question 15. Furthermore, there are new international environmental 
regulations for operating vessels in the Arctic; including restrictions 
for waste disposal and discharge of other toxic vessel waste. With no 
ports for vessels to discharge waste in the United States high Arctic, 
how will vessels be able to comply with these requirements?
    Answer. The International Convention for the Prevention of 
Pollution from Ships MARPOL requires port states to ensure that 
facilities provide the disposal of garbage and other environmental 
wastes such as oily water, noxious substances and sewage. The United 
States has implemented regulations requiring reception facilities for 
wastes in Title 33, CFR Part 158. For U.S. Arctic ports and 
destinations, there simply is no port infrastructure to support 
reception facilities for these wastes, so vessels must take responsible 
action to minimize such wastes and retain onboard such wastes until 
they return to a port where such reception facilities exist.

    Question 16. Admiral Zukunft, the 2010 Coast Guard Authorization 
Act directed the Coast Guard to develop Alternate Safety Compliance 
Plans (ASCP) by 2017 with the intent to implement those ASCPs by 2020. 
Feedback from the fishing industry across the board is that there is a 
concerning lack of information and understanding for what fishing 
vessel owners should be doing to prepare their vessels and crews to be 
in compliance with ASCP by 2020. In my region there has been little, if 
any, outreach. Admiral Zukunft, Arctic countries signed an Arctic 
Search and Rescue Agreement in 2011. The Arctic Council conducted its 
first Search and Rescue exercise in 2012. SAR capabilities are becoming 
more important as tourism, transportation and oil and gas development 
increase in the Arctic. How is the Coast Guard soliciting and 
implementing feedback from the industry (fishing, shipbuilding, etc) as 
the Coast Guard develops the ASCP program?
    Answer. The Coast Guard has been presenting information about the 
ASCP development process since 2011 at: industry conferences and 
expositions; industry association meetings and forums; and informally 
with individual owner/operators who have a vessel undergoing repairs or 
modifications in the Pacific Northwest, Alaska, and Gulf of Mexico.

    Question 17. How can the Coast Guard increase their outreach to the 
fishing and shipbuilding industries to increase stakeholder involvement 
in the development of the ASCP program criteria?
    Answer. The Coast Guard intends to formally announce and publish 
for public comment a draft ASCP requirements matrix that will enhance 
the seaworthiness of older vessels and the safety of their crews. The 
Coast Guard is determining the best means to accomplish making this 
information available to the industry and the public. Subsequent to the 
public availability of the draft ASCP requirements, the Coast Guard 
will continue to provide presentations on the ASCP to industry groups 
and associations and individual owner/operators as may be requested, 
and may also conduct public meetings to solicit feedback, both oral and 
written. After announcement of the draft ASCP requirements, the 
document will be posted on the Coast Guard's www.fishsafe.info and 
other websites. The Coast Guard will encourage industry groups to re-
post the ASCP information on their websites to facilitate further 
awareness for their members.

    Question 18. Please provide a list of the high or medium risk 
fisheries that the Coast Guard is using to model the ASCP program.
    Answer. The Coast Guard has been working with the Pacific Regional 
Office (Anchorage, AK) of the National Institute for Occupational 
Safety and Health (NIOSH) in sharing casualty data and developing 
interventions to improve safety in the commercial fishing industry. 
Joint efforts have helped reduce the number of fatalities and vessel 
losses in the industry. NIOSH has identified fleets and fisheries with 
high casualty rates that are considered high risk based on operations 
and geographic areas. Coast Guard Districts may identify other local 
fleets or fisheries that should be included. Groups may be added or 
deleted based on feedback from industry and public comment. The high 
risk groups identified with NIOSH that may have to meet additional 
safety requirements in an ASCP include the following:

  <bullet> Pacific Purse Seine--Distant Water Tuna Fleet

  <bullet> Pacific Long Line Tuna Fleet

  <bullet> Bering Sea/Aleutian Island Crab Fleet

  <bullet> Alaska Groundfish Trawlers

  <bullet> Alaska Salmon Seiners and Trollers

  <bullet> Alaska Pot Cod

  <bullet> West Coast Crabbers

  <bullet> West Coast Groundfish Trawlers

  <bullet> Gulf of Mexico and South Atlantic Shrimpers

  <bullet> Gulf of Mexico and Atlantic Menhaden

  <bullet> Atlantic Scallopers

  <bullet> Atlantic Clam and Quahog

  <bullet> Northeast Multi-species Groundfish

  <bullet> Northeast Lobster, Herring, and Pelagic fisheries

    Question 19. What formal role will the Commercial Fishing Safety 
Advisory Committee play in the development of the ASCP program? What 
has the Committee accomplished to date? How will they continue to play 
a role in the development, implementation and oversight of the ASCP 
program?
    Answer. The Commercial Fishing Safety Advisory Committee has been 
engaged with the Coast Guard on ASCP development since 2011. During 
that year's meeting, the Committee was briefed on the 2010 Act's 
mandate and discussion ensued regarding what requirements should be 
included in such a program. During the Committee's meetings in August 
2013 (Washington, D.C.) and September 2014 (Providence, RI), the 
Committee was tasked to help the Coast Guard develop requirements for 
ASCPs. As a direct result of their efforts and recommendations, the 
Coast Guard has a draft requirements matrix which may be applicable to 
all vessels and those vessels identified as high risk based on fishery 
or operating area. The Committee will continue to be engaged in making 
recommendations to refine the ASCP requirements and how best to 
implement and manage the program(s).

    Question 20. On what date will the Coast Guard publish ASCP draft 
for public comment?
    Answer. No date has been established for publishing a draft of the 
ASCP requirements for public comment. The Coast Guard is currently 
determining the best method to get the proposed ASCP requirements out 
to the public for comment, but intends to publish it by the end of 
2015.

    Question 21. How many vessels does the Coast Guard anticipate will 
be impacted by ASCP?
    Answer. The Coast Guard's Marine Information for Safety and Law 
Enforcement database shows the current number of fishing vessels that 
are 50 feet or greater in length and 25 years of age or older to be 
approximately 3,500. If all of those vessels also operate beyond three 
nautical miles of the Baseline, this number would represent how many 
vessels potentially would have to comply with an ASCP if in effect 
today. By the year 2020, when ASCP compliance is to be implemented, 
over 1,000 additional vessels will be over 25 years of age.

    Question 22. Explain what additional resources the Coast Guard will 
need to develop and implement the new ASCP program.
    Answer. The Coast Guard does not anticipate a need for additional 
budget or manpower to finish developing ASCPs by 2017. An analysis is 
being conducted to determine the number of currently active vessels 
that will have to comply with an ASCP, and how many separate programs 
may be needed based on region and/or fishery. This will be used to 
inform future budget and manpower needs related to the alternate safety 
compliance programs.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Admiral Paul F. Zukunft
    Question 1. Admiral Zukunft, as you know, the Coast Guard 
Authorization Act of 1998 (P.L. 105-383) spells out how the Coast Guard 
may convey 29.4 acres of Coast Guard property in Nantucket, 
Massachusetts to the Town of Nantucket. Specifically, section 417 of 
the legislation authorizes the Coast Guard to convey Coast Guard Long 
Range Navigation (LORAN) Station Nantucket to the town ``unless'' the 
Coast Guard ``determines that the conveyance would not provide a public 
benefit.'' While it has been years since Congress passed this measure 
and the president signed it into law, it appears a determination has 
not yet been finalized. As a member of the panel with jurisdiction over 
the Coast Guard, I am committed to ensuring that Federal agencies like 
the Coast Guard move swiftly to implement directives laid out by 
Congress. This is one such example. I understand the LORAN station was 
decommissioned in 2010 and the LORAN technology was removed in 2013, as 
the Coast Guard has begun relying on more modern, up-to-date equipment 
to carry out the navigational aid functions the LORAN once provided. It 
is critical that assets like these not be allowed to languish, 
especially if they can be put to better use serving the public good. 
Does the Coast Guard deem the conveyance of the land to be a public 
benefit?
    Answer. The Loran Station Nantucket property identified at section 
417 (a) (1) of the Coast Guard Authorization Act of 1998, consisting of 
29.4 acres of land, is not the same LORAN-C property that was 
decommissioned in 2010. Yes, the Coast Guard deemed the conveyance of 
this land to the Town of Nantucket as a qualifying public benefit use 
to meet law enforcement requirements.

    Question 2. If so, can you provide a timetable for when the 
conveyance will be finalized?
    Answer. The Coast Guard is in the process of reviewing the survey 
map and re-drafting the deed. Upon a Coast Guard legal review and 
approval, the deed will be forwarded to the Town for acceptance and 
execution. Barring any unforeseen circumstances, the Coast Guard 
anticipates the conveyance to occur in 2015.

    Question 3. If, on the other hand, the Coast Guard concludes that 
the conveyance will not provide a public benefit, can you provide the 
information the Coast Guard relies on to make that determination?
    Answer. As previously stated, the Coast Guard deemed the conveyance 
of this land to the Town of Nantucket as a qualifying public benefit 
use to meet law enforcement requirements.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                        Admiral Paul F. Zukunft
    Question 1. Admiral Zukunft, I understand you are looking at 
unmanned air and maritime systems as a way to build capacity at low 
cost to help you meet your eleven statutory missions. What is the 
potential for using unmanned systems not only to support Coast Guard 
intelligence gathering needs, but also other missions such as first 
response and disaster relief?
    Answer. Unmanned Aircraft Systems (UAS) are expected to augment 
manned Coast Guard assets in all maritime security and law enforcement 
missions as technology and policy develop to allow for those types of 
operations.

    Question 2. How far along are we in developing that technology for 
that specific use?
    Answer. The Coast Guard is not engaged in the active development of 
UAS technologies to meet mission requirements. However, the Service is 
messaging to industry the nature of our requirements (all-weather, 
anti-ice capability, sense and avoid for example), and is working with 
government agency working groups to advance UAS policy and facilitate 
UAS inclusion in the national airspace.

    Question 3. Are you coordinating with DOD and others in the 
interagency to take advantage of their lessons learned about unmanned 
platform and payload capacity so that you are not reinventing the 
wheel?
    Answer. Yes. The Coast Guard is actively engaged with Department of 
Defense and other U.S. Government agencies to employ their lessons 
learned in the advancement of our own UAS programs. As directed by the 
Department of Homeland Security Acquisition Decision Memorandum of 
2009, the Coast Guard seeks to leverage the developments and 
capabilities of other government agencies wherever possible.

    Question 4. Admiral Zukunft, in January, at a forum hosted by the 
Center for Strategic and International Studies, you said that, ``As the 
Navy repositions to the Pacific, I'm repositioning to the Western 
Hemisphere.'' I know that you have to make hard choices in this budget 
environment. The Pentagon's Oceania Maritime Security Initiative is 
supposed to help bridge Coast Guard gaps by using transiting naval 
assets to bolster the Coast Guard's maritime domain awareness and 
accomplish other missions in the region. But there is only so much the 
Navy can help with because it does not have the expertise to do things 
like fisheries enforcement, environmental stewardship, and some of the 
other core Coast Guard missions that our partners and allies are really 
looking to the United States to support. The expansion of the Pacific 
Remote Islands Marine National Monument alone is enough to keep 
District Fourteen's hands full. The Monument will now be nearly 490,000 
square miles, about three times the size of California and six times 
larger than its previous size. What new assets can the Coast Guard 
commit to the Pacific Area so that we can provide a Coast Guard 
presence to protect those living marine resources, manage the 
fisheries, and ensure environmental stewardship of the Monument?
    Answer. In Fiscal Year 2017, the Coast Guard will begin homeporting 
Fast Response Cutters (FRCs) in Honolulu, Hawaii. The FRC will provide 
2,500 operational hours versus 1,800 hours per Island Class cutter. 
Additionally, in Fiscal Year 2018, the Coast Guard will homeport the 
first of two National Security Cutters (NSCs) in Honolulu. The NSC 
combines advanced technology for communications, intelligence, 
surveillance and reconnaissance equipment with modern aviation support 
facilities (including unmanned aerial systems capability), stern launch 
cutter boat operations and long-endurance station keeping. These new 
cutters will provide key capabilities to meet growing demand for Coast 
Guard presence in the region.

    Question 5. Admiral Zukunft, one region where capacity constrains 
the Coast Guard is the Arctic, where we are seeing increasing activity 
as a result of climate change. Currently, we have two heavy 
icebreakers, Coast Guard Cutters POLAR STAR and POLAR SEA, and one 
medium icebreaker, Coast Guard Cutter HEALY, in our entire fleet. The 
Coast Guard's FY 2016 budget includes a request for $4 million to 
continue initial work towards acquisition of a new polar icebreaker. 
But even when we finally have that new polar icebreaker, I worry we are 
not going to be adequately resourced to support our needs in the Arctic 
because that icebreaker is intended to replace the POLAR STAR. In my 
view, when you look at our resources and the pace of change in the 
region, we are not, as an Arctic nation, investing wisely and will be 
assuming risk in this part of the world. I know you know this and I 
know the Coast Guard is continuing to assess the operational demands of 
the region through its mobile and seasonal operations, including the 
summer deployment of assets during Operation Arctic Shield. In your 
view, are we under-investing in the Arctic, and if so, how much risk 
are we assuming as a Nation?
    Answer. Private investments play a significant role in informing 
where and how the government should invest their resources. The 
National Strategy for the Arctic Region and its implementation plan 
provide a roadmap on the Federal Government's approach to identifying 
and mitigating risks in the region.

    Question 6. Admiral Zukunft, I would like to discuss the UN 
Convention on the Law of the Sea. Today, 166 nations and the European 
Union have ratified the convention, with the United States remaining 
one of the few holdouts, despite our key role in the negotiations. I 
know our maritime services operate based on customary international 
law. But in my view, the Coast Guard's legitimacy in the areas of 
counter-piracy, counter narcotics and other law enforcement would be 
strengthened if we were party to the treaty. It would improve our 
ability to protect our global maritime interests by providing a 
stronger legal foundation for our own maritime activities and allow us 
to shape and enforce international norms and legal authorities. I 
wonder if you could please comment on how ratifying the Law of the Sea 
Convention would add legitimacy to what the Coast Guard does every day, 
particularly in areas like the Western Pacific?
    Answer. The Coast Guard needs a comprehensive legal framework that 
addresses activities on, over, and under the world's oceans to further 
its statutory maritime missions. Customary international law is 
uncertain, and the Law of the Sea Convention (LOS Convention) provides 
the solid legal framework the Coast Guard needs.
    For the Coast Guard's military and law enforcement efforts, the LOS 
Convention locks in important freedoms of navigation, including high 
seas freedoms, innocent passage, transit passage, and archipelagic sea 
lanes passage, which allow the Coast Guard to project at-sea presence 
and arrive on-scene quickly.

  <bullet> The LOS Convention's stabilization of territorial sea claims 
        to 12 nautical miles helps the Coast Guard's counterdrug and 
        migrant interdiction missions. Locking in these freedoms of 
        navigation and certainty in coastal state maritime territorial 
        claims would bolster U.S. maritime military activities in the 
        Western Pacific.

  <bullet> The LOS Convention also secures mission critical rights of 
        boarding, approach, and visit, which the Coast Guard needs for 
        law enforcement activities.

  <bullet> The United States acceding to the LOS Convention would also 
        help with the Coast Guard's negotiation of bilateral and 
        multilateral agreements covering drug trafficking, migrant 
        smuggling, safety of life at sea, pollution, and the 
        proliferation of weapons of mass destruction, especially at 
        international venues, such as the International Maritime 
        Organization, by providing a firm legal basis to interpret and 
        seek adherence to LOS Convention provisions.

    The LOS Convention is also important for the Coast Guard's maritime 
safety, security, and environmental protection missions by providing 
the internationally-agreed framework under which international 
conventions on vessel standards are negotiated and enforced.
    The Western Pacific region is home to approximately 1.8 billion 
people, more than one-fourth of the world's population. It stretches 
over a vast area, from China in the north and west, to New Zealand in 
the south, and French Polynesia in the east. One of the world's most 
diverse regions, the Western Pacific includes some of the world's least 
developed countries as well as the most rapidly emerging economies. It 
includes highly developed countries such as Australia, Japan, New 
Zealand, the Republic of Korea and Singapore; and fast growing 
economies such as China and Vietnam. The entire region is dependent on 
maritime resources and the ability to transport goods and people by 
vessel. Becoming party to the LOS Convention would improve the Coast 
Guard's standing and credibility in this maritime international 
community.
    The Coast Guard, through the tenure of the past seven Commandants, 
is firmly convinced that U.S. accession to the LOS Convention would 
strengthen our mission execution.

    Question 7. As the Arctic continues to open, to what extent does 
not being party to the treaty leave us hamstrung when it comes to 
securing our claim to maritime resources and to cooperating with other 
countries in the region?
    Answer. The Arctic maritime region is governed by the legal 
framework contained in the LOS Convention, as are all maritime 
activities conducted in the Arctic. As the Arctic opens to further 
navigation and the technology for seabed activities on the extended 
continental shelf continues to develop, the certainty provided by the 
LOS Convention's legal framework is becoming more important.
    The United States is the only Arctic nation not party to the LOS 
Convention. By joining the LOS Convention, the United States is 
guaranteed the use of the process set up in the Convention to obtain 
legal certainty and international recognition over the extended 
continental shelf and its vast resources beyond 200 nautical miles from 
the U.S. coastline in the Arctic. Because non-accession to the LOS 
Convention inhibits the ability of the United States to most 
effectively assert its claims to the U.S. extended continental shelf in 
the Arctic, commercial demand and prospects for investment in the area 
remain uncertain.
    Additionally, the LOS Convention provides the legal framework for 
Arctic bilateral and regional agreements, such as those concerning 
maritime search and rescue and marine environmental response. Accession 
to the LOS Convention would strengthen our negotiation position in 
these discussions.
    Without the LOS Convention, we are operating without a tool that 
every other Arctic nation has. Beginning in April 2015 and for the next 
two years, the United States will chair the Arctic Council. Our 
leadership is weakened by our failure to ratify the LOS Convention.

    Question 8. Admiral Zukunft, I would like to ask you about 
credentialing of our Coast Guard sailors. I have been looking at this 
issue for some time and I think there are ways that we can improve how 
we help our sailors prepare for when they eventually separate so that 
they can put the strongest foot forward, particularly those sailors who 
have the option of a second career in the domestic maritime trade as a 
merchant marine. This includes ensuring that Coast Guard courses and 
sea-going members of the Coast Guard meet the licensing, credentialing, 
and assessment requirements set by the National Maritime Center and 
Standards of Training, Certification, and Watchkeeping. Would you 
support an effort to ensure that the Coast Guard's courses and Boot 
Camp meet STCW Basic Standards and that all sea-going members meet STCW 
Basic standards as well?
    Answer. The Coast Guard is actively engaged both internally and 
externally in an effort to support military members as they transition 
from active duty to potential employment with the merchant marine. The 
Coast Guard participated in a number of meetings with industry, DOD and 
MARAD in an effort to align the duties and qualifications of active 
duty personnel with potential counterparts in the merchant marine. The 
Coast Guard is currently revising sections of the Marine Safety Manual 
to incorporate much of this data. We have recently approved several 
Navy and Coast Guard training courses and competencies that fulfill the 
standards of qualification for various merchant mariner credential 
requirements. Of note, cadets in the 2016 graduating class of the Coast 
Guard Academy will receive a 100-ton Master credential and are eligible 
to sit for higher level credentials after gaining a certain level of 
experience. Currently the Army, Navy, and Coast Guard have approved 
training courses which can be used to demonstrate qualification or 
partial qualification for certain merchant mariner credentials. The 
Coast Guard's National Maritime Center routinely evaluates the 
experience and training of military members applying for merchant 
mariner credentials. We will continue to explore opportunities, such as 
Coast Guard Basic Training, to determine where the training and 
qualifications received meet the qualifications and experience required 
for merchant mariner credentials.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
